<html>
<title> - RAY BAUM'S ACT: A BIPARTISAN FOUNDATION FOR BRIDGING THE DIGITAL DIVIDE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


RAY BAUM'S ACT: A BIPARTISAN FOUNDATION FOR BRIDGING THE DIGITAL DIVIDE

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION
                               __________

                           DECEMBER 11, 2018
                               __________

                           Serial No. 115-174
                           

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  

      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-837 PDF                WASHINGTON : 2019  



                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
KEVIN CRAMER, North Dakota           SCOTT H. PETERS, California
TIM WALBERG, Michigan                DEBBIE DINGELL, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                                 ______

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
MIMI WALTERS, California                 officio)
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     4
    Prepared statement...........................................     5
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     8
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9
    Prepared statement...........................................    10

                               Witnesses

Curtis J. LeGeyt, Executive Vice President, Government Relations, 
  National Association of Broadcasters...........................    11
    Prepared statement...........................................    14
Tim Donovan, Senior Vice President, Legislative Affairs, 
  Competitive Carriers Association...............................    24
    Prepared statement...........................................    26
Jeffrey S. Cohen, Chief Counsel and Director of Government 
  Relations, APCO International..................................    33
    Prepared statement...........................................    35
Bohdan Zachary, General Manager, Milwaukee PBS...................    40
    Prepared statement...........................................    42

                           Submitted Material

FCC Communications Marketplace Report, November 21, 2018, GN 
  Docket No. 18 09231, submitted by Mr. Doyle \1\
Report of September 2018, T-Mobile 600 MHz Cities and Towns, 
  submitted by Mr. Walden........................................    78
Report of August 2018, Central Oregon: Fossil-Monument-Seneca 
  Area, T-Mobile, submitted by Mr. Walden........................    80
Report, Oregon 2nd Congressional District 600 MHz, T-Mobile, 
  submitted by Mr. Walden........................................    91

----------
\1\ The information has been retained in committee files and also 
  is available at  https://docs.house.gov/Committee/Calendar/
  ByEvent.aspx?EventID=
  108785.


 
           
RAY BAUM'S ACT: A BIPARTISAN FOUNDATION FOR BRIDGING THE DIGITAL DIVIDE

                              ----------                              


                       TUESDAY, DECEMBER 11, 2018

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:57 p.m., in 
room 2322, Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Member present: Representatives Blackburn, Shimkus, Latta, 
Guthrie, Olson, Bilirakis, Johnson, Long, Flores, Brooks, 
Walden (ex officio), Doyle, Clarke, Loebsack, Ruiz, Eshoo, 
McNerney, and Pallone (ex officio).
    Staff present: Jon Adame, Policy Coordinator, 
Communications and Technology; Robin Colwell, Chief Counsel, 
Communications and Technology; Kristine Fargotstein, Detailee, 
Communications and Technology; Margaret Tucker Fogarty, Staff 
Assistant; Adam Fromm, Director of Outreach and Coalitions; Tim 
Kurth, Deputy Chief Counsel, Communications and Technology; 
Sarah Matthews, Press Secretary, Energy and Environment; Austin 
Stonebraker, Press Assistant; Evan Viau, Legislative Clerk, 
Communications and Technology; Hamlin Wade, Special Advisor for 
External Affairs; Jeff Carroll, Minority Staff Director; 
Jennifer Epperson, Minority FCC Detailee; Evan Gilbert, 
Minority Press Assistant; Alex Hoehn-Saric, Minority Chief 
Counsel, Communications and Technology; Rick Kessler, Minority 
Senior Advisor and Staff Director, Energy and Environment; Dan 
Miller, Minority Policy Analyst; and Andrew Souvall, Minority 
Director of Communications, Member Services, and Outreach.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. The Subcommittee on Communications and 
Technology will now come to order, and the Chair recognizes 
herself for 5 minutes for an opening statement. And good 
afternoon to everyone, and welcome to our last hearing of this 
Congress.
    Over the last 2 years, it has been my pleasure to work with 
everybody on the subcommittee and many of you that are here in 
the room today on wide-ranging and important legislation to the 
communications and technology industry. Though we occasionally 
have had our disagreements, we have really gotten a lot done, 
and it is work that the American people have wanted to see 
accomplished.
    Nothing demonstrates this more than RAY BAUM'S Act, which 
was jam-packed with this year's top communications priorities, 
as well as many other bills many of you have worked on for the 
last several years, and we achieved through consensus and 
compromise from everybody around the table, both here and in 
the Senate, some good directives. And I thank everyone for the 
work on that.
    RAY BAUM'S is one of the most comprehensive 
telecommunications laws in two decades. Prior to RAY BAUM'S 
Act, the FCC had not been reauthorized since 1990. And first 
questions will go to whomever can tell me what was the top 
Christmas movie of 1990.
    You all have no social IQ there. No, it wasn't ``Grinch,'' 
it was ``Home Alone.'' You got it. OK. And then Garth Brooks' 
top song that year. I have always got to have a Nashville 
connection. In 1990, what was Garth Brooks' top song?
    Mr. Long. ``Friends in Low Places.''
    Mrs. Blackburn. You got it. Yes, ``Friends in Low Places.'' 
It would take a politician to know that.
    By reauthorizing the Commission, we as authorizers on this 
committee gave direction to the agency, reaffirmed the 
important missions we have delegated to them, and most 
importantly, gave them the necessary tools to be successful in 
the 21st century.
    We see this in setting up new funds to ensure the broadcast 
incentive auction stays on track to be completed in 39 months.
    We see this in the new rules that allow spectrum auction 
bidders to deposit their upfront payments directly with the 
Treasury to ensure that more airwaves, both in the current 
pipeline and on the horizon, are brought to market.
    And we see this with our bipartisan commitment to focus the 
Commission on finding ways to encourage restoration and 
resiliency of communication networks after disasters.
    At the first hearing of 2018, we gathered to discuss all of 
the legislation addressing broadband infrastructure that had 
been introduced by every single member of this subcommittee. 
Provisions from several of these were ultimately incorporated 
into RAY BAUM'S Act.
    Also included in RAY BAUM'S Act were provisions from bills 
that long have enjoyed bipartisan support, but never could get 
enacted into law, like Mr. Scalise's FCC Consolidated Reporting 
Act and the Anti-Spoofing Act championed by Mr. Lance and Mr. 
Barton.
    But despite these breakthroughs, there is still other work 
that needs to be done, and with the new year comes a new 
opportunity to bring more ideas to the table. I am encouraged 
by the bipartisan foundation set by RAY BAUM'S Act, and I am 
confident that this subcommittee will build on its success that 
we have had in the 115th Congress and keep working on many of 
these areas of common interest. Americans deserve no less.
    I would like to thank our witnesses for being here today. 
And before I yield to Mr. Doyle, I would like to recognize some 
of the people who have made our committee so successful during 
this Congress.
    First, to our wonderful staff. They have stuck together, 
worked hard, and on both the Democrat and Republican sides they 
have worked well. Mr. Lance, who is not here, who has worked 
really hard. My fellow Senator-elect Kevin Cramer, who is 
moving on. Mr. Costello, who chose to retire. And Mimi Walters, 
who worked so diligently on our FOSTA and SESTA legislation, as 
we are working to fight human trafficking and online sex 
trafficking.
    I am certain that you are going to see the commitment 
carried on as we continue to review all aspects of the 1996 
Telecom Act.
    And with that, I yield 5 minutes to the ranking member, Mr. 
Doyle.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Good morning and welcome to our last hearing of the 
Congress. Over the last 2 years, it has been my pleasure to 
work with all of you on the subcommittee on wide-ranging, 
important legislation. Though we occasionally have our 
disagreements, we have accomplished a lot for the American 
people this Congress. Nothing demonstrates this more than RAY 
BAUM'S Act, which was jam-packed with this year's top 
communications priorities, as well as many other bills many of 
you have worked on over the last several years. And it came 
through concession and compromise from everyone around the 
table, both here and in the Senate-so I want to thank everyone 
who was part of that process.
    RAY BAUM'S Act is one of the most comprehensive 
telecommunications laws in two decades. Prior to RAY BAUM'S 
Act, the FCC hadn't been reauthorized since 1990, when ``Home 
Alone'' first debuted and Garth Brooks' ``Friends in Low 
Places'' was top 5 in the country charts. By reauthorizing the 
Commission, we--as authorizers on this committee--gave 
direction to the agency, reaffirmed the important missions 
we've delegated to them, and most importantly gave them the 
necessary tools to succeed.
    We see this in setting up new funds to ensure the broadcast 
incentive auction stays on track to be completed in 39 months.
    We see this in the new rules that allow spectrum auction 
bidders to deposit their upfront payments directly with the 
Treasury to ensure that more airwaves, both in the current 
pipeline and on the horizon, are brought to market.
    And we see this with our bipartisan commitment to focus the 
Commission on finding ways to encourage restoration and 
resiliency of communications networks after disasters.
    At the first hearing of 2018, we gathered to discuss all of 
the legislation addressing broadband infrastructure that had 
been introduced by every member of the subcommittee. Provisions 
from several of these were ultimately incorporated into RAY 
BAUM'S Act. Also included in RAY BAUM'S Act were provisions 
from bills that long have enjoyed bipartisan support, but never 
could get enacted into law, like Mr. Scalise's FCC Consolidated 
Reporting Act and the Anti-Spoofing Act championed by Mr. Lance 
and Mr. Barton on this committee.
    But despite these breakthroughs, there is still more work 
to be done- and with the new year comes a new opportunity to 
bring more ideas to the table. I'm encouraged by the bipartisan 
foundation set by RAY BAUM'S Act, and I'm confident that this 
subcommittee will build on its success in the 115th Congress 
and keep working on the many areas of common interest. 
Americans deserve no less.
    I would like to thank our witnesses for being here, but 
before I yield to Mr. Doyle, I'd like to recognize some of the 
people who have made our committee so successful during this 
Congress. First, I would like to thank my wonderful committee 
staff. They stuck together through a tough year, and made great 
strides in achieving our committee's priorities. I would also 
like to acknowledge my good friend Leonard Lance, who lead on a 
number of bills that moved through this committee; my fellow 
Senator-elect Kevin Cramer; Ryan Costello; and of course Mimi 
Walters, who played a significant role for this committee's 
jurisdiction with enactment of the FOSTA-SESTA legislation as 
another tool to fight human sex trafficking--I can assure you 
that commitment will carry on as we continue to review all 
aspects of the 1996 Telecom Act and other communications laws 
next Congress. And with that I will yield to the ranking member 
of the subcommittee, Mr. Doyle.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you.
    I want to thank the witnesses for coming before us today. 
And I want to thank you, soon-to-be-Senator Blackburn, for 
holding this hearing, and congratulations to you.
    Mrs. Blackburn. Thank you.
    Mr. Doyle. The RAY BAUM'S Act was the result of bipartisan, 
bicameral negotiations and good-faith efforts by both sides. I 
am glad that so many Democratic priorities were included in 
this legislation, including Ranking Member Pallone's Viewer 
Protection Act, and SANDy Act, as well as bills led by 
Representatives McNerney, Loebsack, Eshoo, Engle, Ruiz, Lujan, 
and Matsui. However, much work remains to be done to be sure 
that this legislation is carried out as Congress intended.
    For instance, while I am glad that we were able to come 
together and ensure that broadcasters would have the resources 
they need to complete the incentive auction repack, I am 
disappointed that the FCC still has not started up the consumer 
education program that was authorized and funded by this 
legislation.
    As Mr. Zachary points out in his testimony, consumers are 
in desperate need of education about how the repack impacts 
them. While I understand that broadcasters have an incentive to 
inform their viewers, Mr. Zachary's testimony shows that 
consumers often must be guided through the process of 
rescanning their local stations. These are problems viewers are 
facing now, and the FCC needs to get into gear.
    RAY BAUM'S Act was also consolidated a number of reports at 
the FCC into the Consolidated Communications Marketplace 
Report, and the Commission is planning to vote on this report 
at their open meeting tomorrow. The draft report says that 
nearly 100 percent of our country is served by one or more LTE 
wireless providers, which is a joke.
    Madam Chairman, I would like to add this draft report to 
the record so that our colleagues can see what the FCC thinks 
about wireless coverage in their districts.
    [The information appears at the conclusion of the hearing.] 
\1\
---------------------------------------------------------------------------
    \1\ The information has been retained in committee files and also 
is available at  https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108785.
---------------------------------------------------------------------------
    Mr. Doyle. With data like this, it is no surprise that the 
Commission put its mobility fund to auction on hold. The 
Commission needs better data in order to proceed with this 
auction. They can't put the onus on rural bidders to verify or 
dispute another carriers claim of coverage in any given area.
    So while I am pleased the FCC has delayed this auction, I 
am sorely disappointed that they took so long to do it. This 
auction will fund wireless rural broadband deployment for the 
next 10 years and we need to get it right.
    Another aspect of the RAY BAUM'S Act that I think requires 
more oversight is the C-band report that the FCC and NTIA are 
required to submit to Congress by September of 2019. This 
report will examine the feasibility of allowing licensed, 
unlicensed, and shared use of this band. Currently, cable 
operators, broadcasters, and public radio use this band to 
distribute program using satellite downlinks.
    The satellite providers have proposed a private market 
transition that would sell off 200 megahertz of spectrum to 
wireless companies and consolidate satellite operations into 
the upper 300 megahertz of the band. Finding creative solutions 
to meet our spectrum needs is crucial, and I think there is 
merit to this plan. However, I am very concerned about the 
specifics, or lack thereof, that has been proposed so far.
    This band is among those that has been identified as key to 
deploying our 5G service. Allowing a small group of foreign 
companies to handpick which wireless carriers get access to 
this critical spectrum raises incredible questions about 
competition, rural deployment, transparency, and the public 
interest. Our Nation cannot afford to have the FCC sit on the 
sidelines while our Nation's 5G future is being decided.
    Finally, my community in Pittsburgh was impacted by a 
terrible tragedy at the Tree of Life synagogue in Squirrel 
Hill. It was the deadliest attack on the Jewish community in 
U.S. history. Our community is deeply grateful for the efforts 
of first responders that stopped that attack. The first people 
that responded were the 9-1-1 call center operators who 
received calls from people inside. They helped dispatch the 
first units that responded to the scene.
    The RAY BAUM'S Act authorized important changes to the way 
9-1-1 systems work in hotels and large buildings, and 
Representatives Eshoo and Shimkus' leadership on this issue has 
been critical. We need to do more particularly as we look at 
next generation systems and the funding challenges we face in 
deploying the technology nationwide.
    Thank you, again, Madam Chair, for convening this hearing. 
I wanted to say it has been a pleasure to serve with you on 
this committee, and I wish you well in that other body when you 
make your move. I look forward to hearing the testimony of the 
witnesses here today, and I yield back.
    [The prepared statement of Mr. Doyle follows:]

              Prepared statement of Hon. Michael F. Doyle

    Thank you to the witnesses for coming before us today, and 
thank you to Chairman--soon to be Senator--Blackburn for 
holding this hearing. Congratulations.
    The RAY BAUM'S Act was the result of bipartisan, bicameral 
negotiations and good faith efforts by both sides. I'm glad 
that many Democratic priorities were included in this 
legislation, including Ranking Member Pallone's Viewer 
Protection Act and SANDy Act, as well as bills led by Reps. 
McNerney, Loebsack, Eshoo, Engel, Ruiz, Lujan, and Matsui.
    However, much work remains to be done to ensure that this 
legislation is carried out as Congress intended.
    For instance, while I'm glad that we were able to come 
together and ensure that broadcasters would have the resources 
they need to complete the Incentive Auction Repack, I'm 
disappointed that the FCC still has not started up the consumer 
education program that was authorized and funded by this 
legislation.
    As Mr. Zachary points out, consumers are in desperate need 
of education about how the repack impacts them. While I 
understand that broadcasters have an incentive to inform their 
viewers, Mr. Zachary's testimony shows that consumers often 
must be guided through the process of rescanning their local 
stations. These are problems viewers are facing now, the FCC 
needs to get it into gear.
    RAY BAUM'S Act also consolidated a number of reports at the 
FCC into the Consolidated Communications Marketplace Report, 
and the Commission is planning to vote on this report at their 
open meeting tomorrow.
    The draft report says that nearly 100 percent of our 
country is served by 1 or more LTE wireless providers, which is 
a joke. Madam Chairman, I'd like to add this draft report to 
the record, so that our colleagues can see what the FCC thinks 
about wireless coverage in their districts.
    With data like this, it's no surprise the Commission put 
its Mobility Fund Two auction on hold. The Commission needs 
better data in order to proceed with this auction. They can't 
put the onus on rural bidders to verify or dispute another 
carrier's claims of coverage in any given area.
    So, while I am pleased the FCC has delayed this auction, I 
am sorely disappointed they took so long to do it. This auction 
will fund wireless rural broadband deployment for the next 10 
years. We need to get it right.
    Another aspect of the RAY BAUM'S Act that I think requires 
more oversight is the C-Band report that the FCC and NTIA are 
required to submit to Congress by September of 2019. This 
report will examine the feasibility of allowing licensed, 
unlicensed, and shared use of this band. Currently, cable 
operators, broadcasters, and public radio use this band to 
distribute programing using satellite downlinks. The satellite 
providers have proposed a private market transaction that would 
sell off two hundred megahertz of spectrum to wireless 
companies and consolidate satellite operations into the upper 
three hundred megahertz of the band.
    Finding creative solutions to meet our spectrum needs is 
crucial, and I think there is merit to this plan. However, I am 
very concerned about the specifics, or lack thereof, as they 
have been proposed so far. This band is among those that has 
been identified as key to deploying 5G service. Allowing a 
small group of foreign companies to hand-pick which wireless 
carriers get access to this critical spectrum raises incredible 
questions about competition, rural deployment, transparency, 
and the public interest. Our Nation cannot afford to have the 
FCC sit on the sidelines while our Nation's 5G future is being 
decided.
    Finally, my community in Pittsburgh was impacted by a 
terrible tragedy at the Tree of Life Synagogue in Squirrel 
Hill. It was the deadliest attack on the Jewish community in US 
history. Our community is deeply grateful for the efforts of 
the first responders who stopped the attack, including the 9-1-
1 call center operators who received calls from the people 
inside. They helped dispatch the first units that responded to 
the scene. The RAY BAUM'S Act authorized important changes to 
the way 9-1-1 systems work in hotels and large buildings, and 
Representative Eshoo and Shimkus's leadership on this issue has 
been critical. We need to do more, particularly as we look at 
next generation systems and the funding challenges we face in 
deploying this technology nationwide.
    Thank you again, Madam Chair, for convening this hearing, 
and I look forward to the testimony of our witnesses.

    Mrs. Blackburn. The gentleman yields back.
    Mr. Walden, you are recognized for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Well, thank you very much, Madam Chair. And I 
hope your reference to Garth Brooks and ``Friends in Low 
Places'' isn't how you will view us once you get to the Senate.
    It is a fitting tribute that the subcommittee ends the 
115th Congress with a hearing dedicated to RAY BAUM'S Act. As 
others have referenced, many of you know Ray spent his life 
working to maintain a bipartisan spirit in facing 
communications challenges at home in Oregon and all across the 
country.
    This subcommittee's achievements stand as a reminder of the 
potential to work together and to get substantial 
telecommunications law across the goal line, even in the face 
of gridlock and partisanship elsewhere. And I have every hope 
the bipartisanship spirit will continue into the next Congress.
    Even before RAY BAUM'S Act became a reality, this 
subcommittee worked on two important bills that were signed 
into law. Kari's Law assured that if you called 9-1-1, you knew 
that that call would go through no matter where you are. And an 
important complement to that, the Improving Rural Call Quality 
and Reliability Act designed to ensure rural calls don't fall 
through the cracks.
    These two measures represent significant accomplishments 
for public safely, but also for rural areas, and showed that we 
could get things done, even for bills like these we tried to 
pass before in previous Congresses. And I think they also 
whetted the subcommittee's appetite for bigger accomplishments, 
setting the stage for the major milestone of RAY BAUM'S Act.
    So our work certainly demonstrates the value of working in 
a bipartisan manner, especially on public safety legislation. 
Together we have helped to ensure that broadcasters won't get 
knocked off the air in times of emergencies. The spoofing 
provision that was included will help us in moving forward on 
the bipartisan swatting legislation that we teed up a few weeks 
ago. And, of course, the ranking member's SANDy Act will help 
to avail emergency responders of all technologies during 
natural disasters.
    Now, under RAY BAUM'S Act, the broadcast stations that did 
not participate in the incentive auction and were assigned to 
new channels have an additional billion dollars for 
reimbursement of expenses to make that move. When it became 
apparent the original $1.75 billion that was allocated for 
these reimbursements wasn't going to be enough, we worked in a 
bipartisan way to ensure that we kept our word that these 
broadcasters would remain on the air.
    Also important was the inclusion of low-powered TV and 
translators, which now have funds available for their 
reimbursement. These stations bring the benefit of broadcasting 
to rural and hard to reach places in my district and countless 
others. And I am looking forward to hearing the testimony from 
the witnesses on how the repack effort is going. We also made 
money available for FM antennas as well, which I don't think 
anybody had really contemplated needing prior to that.
    While I think we can all agree RAY BAUM'S Act provides a 
solid foundation of accomplishment that we can build on in the 
next Congress, we also must remember to remain vigilant to 
challenges to the jurisdiction of the committee. The 
subcommittee has shown its ability to come together when the 
jurisdiction of this committee is at stake, whether it be 
threats to our communications' networks or consequences of safe 
harbors that now shape the internet differently than they did 
in its infancy. So I look forward to working with my colleagues 
going forward into the next Congress.
    Now, there is still work to be done and there is still 
obstacles that remain, but I am optimistic we can get things 
done.
    Lastly, my colleagues and I, we would like to thank 
Subcommittee Chairman Marsha Blackburn and Vice Chairman 
Leonard Lance, as today is our last hearing with them at the 
helm. And I want to extend my sincerest congratulations to you, 
Senator-elect, as you will be representing all of the people of 
Tennessee in the United States Senate. And I think we all want 
Mr. Lance to know how much we valued his thoughtful, effective, 
and his very civil public service. And so we thank both of you 
for your service and your leadership on this committee and wish 
you Godspeed in your next journey.
    Thank you, and I yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning and welcome to our witnesses, thank you for 
being here. It is a fitting tribute for the Subcommittee on 
Communications and Technology to end the 115th Congress with a 
hearing dedicated to RAY BAUM'S Act. As many of you know, Ray 
spent his life working to maintain a bipartisan spirit in 
facing the communications challenges we all seek to address. 
This subcommittee's achievement stands as a reminder of the 
potential to work together and get a substantial 
telecommunications law across the goal line, even in the face 
of gridlock and partisan divide. And I have every hope that 
this bipartisan spirit will continue into the next Congress.
    Even before RAY BAUM'S Act became a reality, this 
subcommittee worked on two important bills that were signed 
into law. Kari's Law assured that if you called 9-1-1, you knew 
that call would go through no matter where you are, and an 
important complement to that, the Improving Rural Call Quality 
and Reliability Act, designed to ensure that rural calls don't 
fall through the cracks. These two measures represented 
significant accomplishments for public safety but also for 
rural areas, and showed that we could get things done, even for 
bills like these that we tried to pass before in a previous 
Congress. And I think they also whetted the subcommittee's 
appetite for bigger accomplishments, setting the stage for the 
major milestone of RAY BAUM'S Act.
    Our work certainly demonstrates the value of working in a 
bipartisan manner, specifically on public safety legislation. 
Together, we helped to ensure that broadcasters won't get 
knocked off the air in times of emergencies. The spoofing 
provision that was included will help us in moving forward on 
the bipartisan SWATting legislation we teed up a few weeks ago. 
And, of course, the Ranking Member's SANDy Act will help to 
avail emergency responders of all technologies during natural 
disasters.
    Under RAY BAUM'S Act, the broadcast stations that did not 
participate in the incentive auction and were assigned to new 
channels have an additional $1 billion dollars for 
reimbursement of expenses to make that move. When it became 
apparent that the original $1.75 billion that was allocated for 
these reimbursements wasn't going to be enough, we worked in a 
bipartisan way to ensure that we kept our word and that these 
broadcasters will remain on air.
    Also important was the inclusion of low-power TV and 
translators, which now have funds available for reimbursement. 
These stations bring the benefits of broadcasting to rural and 
hard-to-reach places in my district and countless others. I'm 
looking forward to hearing testimony from the witnesses on how 
the repack effort is going, given the new funds and the 
additional classes of entities who now qualify to have their 
moving expenses reimbursed.
    While I think we can all agree that RAY BAUM'S Act provides 
a solid foundation of bipartisan accomplishments that we can 
build on in the next Congress, we must also remember to remain 
vigilant to challenges to the jurisdiction of the committee.
    This subcommittee has shown its ability to come together 
when the jursidiction of this committee is at stake; whether it 
be threats to our communications networks or consequences of 
safe harbors that now shape the Internet differently than they 
did in its infancy.
    I look forward to working with my colleagues on both sides 
of the aisle to continue the dialogue on those issues next 
year.
    There is still work to be done, and there are still 
obstacles that remain. But I am optimistic that we can work 
together next year, in good faith, to continue addressing areas 
of common ground.
    Lastly, my colleagues and I would like to thank 
Subcommittee Chairman Marsha Blackburn and Vice Chairman 
Leonard Lance as today is our last hearing with them at the 
helm. I want to extend my sincerest congratulations to Rep. 
Blackburn, who will represent the people of Tennessee in the 
United States Senate. And I want Mr. Lance to know how much I 
valued his thoughtful, effective and civil public service. 
Thanks to you both for your dedication and hard work.
    With that, Madam Chairman, I yield back.

    Mrs. Blackburn. The gentleman yields back.
    Mr. Pallone, you are recognized for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chair. And I also want to 
congratulate the Senator-elect on her success and victory. And 
we often worked on legislation together, and hopefully when you 
go over to the Senate, you will be continuing to work on 
telecommunications and internet issues, so we will continue to 
work together on a bicameral basis now as well.
    The RAY BAUM'S Act is a fitting tribute to the late staff 
director of this committee, a man who committed his life until 
the very end to public service. And Ray brought an unflinching 
bipartisan approach to legislation. And through our bipartisan 
efforts, we were able to include a number of Members' bills as 
part of the RAY BAUM'S Act, making important headway on many 
issues this committee prioritizes. I can't list them all now, 
they are too many, but I just wanted to mention a few sections 
that actually have been mentioned to some extent already today.
    And perhaps the most prominent provisions within the RAY 
BAUM'S Act are those originally stemming from the Viewer 
Protection Act. Those provisions make sure viewers across the 
country don't lose access to the over-the-air stations they 
depend on in the wake of the world's first spectrum incentive 
auction that the Federal Communications Commission concluded 
last year.
    The law dedicated $50 million to educating consumers about 
the repack to ensure they do not lose service and suffer 
minimal disruption. I understand the FCC is working on that 
issue now, and I look forward to hearing about how things are 
going from our witnesses.
    The final law also included the Securing Access to Networks 
and Disasters Act, or the SANDy Act. Superstorm Sandy 
devastated my district in New Jersey, and we saw firsthand how 
critical communication networks can be during emergencies. Of 
course, since then, major hurricanes like Maria and Michael 
have once again demonstrated the need for continual vigilance 
and preparation. And so-called 100-year storms and floods are 
becoming more and more commonplace as a result of climate 
change.
    The SANDy Act takes an important step towards fixing 
longstanding problems by elevating the critical role that 
lifesaving communications systems play during emergencies, 
whether it be wire line and mobile telephone, the internet, 
radio, broadcast TV, cable, or satellite services. This 
elevation will help ensure these services can be restored 
faster.
    And the law also frees up more spectrum for consumers, 
targets, oversees robo-callers and fraudsters, deploys 
broadband infrastructure to people that desperately need it, 
and a lot more. And now the RAY BAUM'S Act is the law of the 
land. We must continue working together to rigorously oversee 
its implementation, and I look forward to starting that process 
today and conducting more oversight hearings in the next 
Congress.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    The RAY BAUM'S Act is a fitting tribute to the late staff 
director of this committee--a man who committed his life until 
the very end to public service. Ray brought an unflinching 
bipartisan approach to legislation. And through our bipartisan 
efforts, we were able to include a number of Members' bills as 
part of the RAY BAUM'S Act, making important headway on many 
issues this committee prioritizes.
    I cannot list them all now. There are too many. But a few 
sections stand out to me.
    Perhaps the most prominent provisions within the RAY BAUM'S 
Act are those originally stemming from the Viewer Protection 
Act. Those provisions make sure viewers across the country 
don't lose access to the over-the-air stations they depend on 
in the wake of the world's first spectrum incentive auction 
that the Federal Communications Commission (FCC) concluded last 
year.
    The law dedicated $50 million to educating consumers about 
the repack to ensure they do not lose service and suffer 
minimal disruption. I understand the FCC is working on that 
issue now, and I look forward to hearing about how things are 
going from our witnesses.
    The final law also included the Securing Access to Networks 
in Disasters Act or the SANDy Act. Superstorm Sandy devasted my 
district in New Jersey, and we saw firsthand how critical 
communications networks can be during emergencies. Of course, 
since then major hurricanes like Maria and Michael have once 
again demonstrated the need for continual vigilance and 
preparation. So called ``100-year'' storms and floods are 
becoming more and more commonplace as a result of climate 
change.
    The SANDy Act takes an important step toward fixing 
longstanding problems by elevating the critical role that 
lifesaving communications systems play during emergencies. 
Whether it be wireline and mobile telephone, the internet, 
radio, broadcast television, cable or satellite services, this 
elevation will help ensure these services can be restored 
faster.
    This law also frees up more spectrum for consumers, targets 
overseas robocallers and fraudsters, deploys broadband 
infrastructure to people that desperately need it, and more.
    And now that the RAY BAUM'S Act is the law of the land, we 
must continue working together to rigorously oversee its 
implementation. I look forward to starting that process today 
and conducting more oversight next Congress.
    With that, I yield 1 minute of my remaining time to Ms. 
Eshoo and the following minute to Ms. Matsui.

    Mr. Pallone. So I would like to yield now the time that I 
have left to Ms. Eshoo.
    Ms. Eshoo. I thank our ranking member. And I too want to 
congratulate our chairwoman going over to the Senate, and I 
just know you are going to get net neutrality right over the 
line as soon as you get there, and I will be your partner here. 
But, seriously, congratulations to you, and I hope that you 
remain involved in these issues so that we can partner on them.
    And to Leonard Lance, who was just on the floor with--is 
Leonard here? No--on the floor with me on the PREEMIE Act, we 
are really going to miss him. We are going to miss him. There 
isn't a more civil gentle man and gentleman here, so I want to 
pay tribute to him and the work that he has done.
    And I too think that it is fitting--I think this is our 
last hearing--that it is fitting that it is the RAY BAUM'S Act, 
the end of this Congress. I think wherever this subcommittee 
meets, his presence will always be felt amongst us. And the Act 
was done in the spirit of bipartisanship, and that is what Ray 
really took pride in. As the chairman of the committee said, 
that was his life's work.
    I am proud that the Act contained a version of Dig Once. I 
think a lot of people are tired of listening to me talk about 
Dig Once, because I introduced the legislation five Congresses 
ago. I guess maybe something that is so commonsense just takes 
a long time, right?
    But at any rate, I am really pleased that--it is important 
because as much as 90 percent of the cost of deploying fiber 
optic cable comes from the cost of digging up roads and burying 
the cable. So the bill requires the DOT to establish new 
requirements. You all know what it is, I am not going to go 
through it. But I do think that in the next Congress that we 
can take some additional steps to build on the progress that we 
just made with this policy.
    And the Act also included the RESPONSE Act, which requires 
the FCC to complete a proceeding to provide first responders 
with the precise location of a 9-1-1 caller. This is really 
essential. This is really essential in our country because it 
will save lives, and it is something that the Commission and 
the Congress have been trying to get done for years. So I am 
proud to have worked with the majority on these priorities. I 
know it is not easy to be in the minority, but hail, hail, you 
can still get things done. And I think that--no, I really mean 
this. You know, most of my time, out of 26 years, the majority 
of it has been in the minority, but that hasn't stopped me. I 
have never taken on a minority mindset. We are here to get 
things done, and I think that in this committee, most 
especially, we will continue to.
    So thank you. And I thank the ranking member for yielding 
to me so much time. Thank you.
    Mrs. Blackburn. The gentlelady yields back, and the 
gentleman yields back.
    This concludes the Member opening statements. And I would 
like to remind all Members that, pursuant to committee rules, 
they have their opening statements made a part of the record.
    We want to thank all of our witnesses for being here today. 
Today's witnesses will have the opportunity to give their 5-
minute opening statement, and then we will follow that with 
questions.
    Our panel includes Curtis LeGeyt, executive VP of 
government relations at the National Association of 
Broadcasters; Tim Donovan--welcome back, sir--senior VP of 
legislative affairs at the Competitive Carriers Association; 
Mr. Jeff Cohen, chief counsel of APCO International; and Mr. 
Bohdan Zachary, general manager of the Milwaukee Public 
Broadcast Station.
    We appreciate each of you being here today and preparing 
your testimony and getting that in in a timely manner.
    Mr. LeGeyt, we will recognize you now for 5 minutes for 
your opening testimony.

   STATEMENTS OF CURTIS J. LEGEYT, EXECUTIVE VICE PRESIDENT, 
GOVERNMENT RELATIONS, NATIONAL ASSOCIATION OF BROADCASTERS; TIM 
     DONOVAN, SENIOR VICE PRESIDENT, LEGISLATIVE AFFAIRS, 
   COMPETITIVE CARRIERS ASSOCIATION; JEFFREY S. COHEN, CHIEF 
      COUNSEL AND DIRECTOR OF GOVERNMENT RELATIONS, APCO 
 INTERNATIONAL; AND BOHDAN ZACHARY, GENERAL MANAGER, MILWAUKEE 
                              PBS

                 STATEMENT OF CURTIS J. LEGEYT

    Mr. LeGeyt. Thank you.
    And good afternoon, Chairmen Blackburn and Walden, Ranking 
Members Pallone and Doyle, and members of the subcommittee. My 
name is Curtis LeGeyt, and I am the executive vice president of 
Government Relations at the National Association of 
Broadcasters. On behalf of the thousands of free local 
television and radio broadcasters in your hometowns, I 
appreciate the opportunity to testify on this committee's 
successful passage of RAY BAUM'S Act.
    This bipartisan legislation ensures that broadcast 
television and radio stations can continue to serve their 
communities following the unprecedented repack of nearly 1,000 
full-power television stations across the country. Moreover, I 
am personally honored to speak to this legislative success, 
fittingly named after our beloved NAB colleague, distinguished 
public servant, and friend to everyone he met, Ray Baum.
    I am confident that everyone on this committee, Members and 
staff alike, have fond memories of Ray. Before he was the staff 
director of this committee, I was fortunate to have worked with 
Ray as a close colleague at the NAB. On the surface, Ray and I 
had many differences. We are of different generations, 
different faiths, different political meanings, but none of 
that mattered to Ray. He was unwavering in his desire to seek 
out common ground with everyone he worked with, and his genuine 
love of life was disarming not only to me and our other 
colleagues at NAB, but also to our adversaries in the policy 
space. Having seen those diplomatic abilities firsthand, I have 
no doubt that his spirit and unrelenting desire to put aside 
differences in advancement of shared priorities enabled the 
bipartisan working relationships on this committee that 
resulted in the passage of RAY BAUM'S Act. For that, broadcast 
viewers and listeners across the country are grateful.
    RAY BAUM'S Act will help ensure that broadcast viewers and 
listeners can continue to access the stations on which they 
rely. Thanks to the committee's inclusion of the Viewer 
Protection Act in the final law, $1 billion was provided to 
ensure that all impacted television and radio stations are 
eligible to have costs associated with this repack reimbursed 
by the FCC.
    Importantly, this legislation also funds FCC consumer 
education efforts as stations move channels, and includes the 
SANDy Act so that local broadcasters can access critical 
resources to keep their facilities functioning during times of 
emergency. For all of this, I am here to say thank you.
    Now, as the FCC moves forward with a massively complex 
repack process, early warning signs suggest that viewers are 
still at risk. In the first phase of the repack, which was 
completed 2 weeks ago, 79 stations successfully completed their 
moves on time. However, 11 broadcasters were unable to meet 
their move deadlines for reasons beyond their control, such as 
inclement weather and tower crew availability.
    We are gratified that the FCC granted each of these 
stations waivers and moved them into subsequent repack phases. 
In each of these cases, though, these phase changes could be 
done without impacting future station moves. That will not be 
the case as the repack moves forward.
    The Phase II deadline in April 2019 applies to 116 stations 
and is significantly more complex. While broadcasters will do 
everything possible to meet their deadlines, this committee 
should ensure that the FCC applies a fair waiver standard that 
will not force a single station to go off the air or reduce 
coverage due to circumstances outside their control, as 
Congress intended.
    Beyond its policy improvements, the enduring lesson of RAY 
BAUM'S Act is that this committee can lead and make meaningful 
differences when it works together on a bipartisan basis. In 
that spirit, there are two significant issues worthy of your 
ongoing consideration entering the next Congress.
    First, this committee should ensure that existing users of 
C-band spectrum are fully protected and reimbursed should a 
portion of the spectrum be reallocated for mobile broadband 
use. Second, this committee should allow the expiring 
provisions of STELAR to finally sunset as Congress has long 
intended. This distant signal license is a subsidy for what are 
now two of the largest pay TV providers in the country, and 
incentivizes the satellite carriage of out-of-market rather 
than local broadcast stations. This practice runs contrary to 
Congress' long-stated broadcast policy preference that viewers 
are best served by their local stations, and it is no longer 
justified.
    In conclusion, I would like to thank you again for allowing 
me to speak about the bipartisan success of RAY BAUM'S Act. As 
Ray would always say, ``Thanks for coming out today.'' I look 
forward to answering your questions.
    [The prepared statement of Mr. LeGeyt follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Mr. Donovan, you are recognized for 5 minutes.

                    STATEMENT OF TIM DONOVAN

    Mr. Donovan. Chairman Blackburn, Ranking Member Doyle, 
Chairman Walden, and members of the subcommittee, thank you for 
the opportunity to testify about how policies enacted in RAY 
BAUM'S Act are addressing the digital divide.
    CCA is the Nation's leading association of competitive 
wireless providers, composed of nearly 100 carrier members 
ranging from small rural providers serving fewer than 5,000 
customers to regional and nationwide providers serving 
millions, as well as vendors and suppliers that provide 
products and services throughout the mobile communications 
ecosystem. Policies enacted in RAY BAUM'S Act will help these 
carriers preserve and expand broadband service in rural 
America, while memorializing a good man whose presence and 
dedication to public service, particularly to help those in 
rural America, touched us all. CCA applauds this committee's 
work to pass the Act, a significant bipartisan accomplishment 
that impacts a broad range of policy issue areas.
    While 5G buzz grabs the headlines, rural America is at a 
crossroads. Decisions made by policymakers today can either 
launch new innovation, economic growth, and education and 
public safety benefits in rural America or broaden the digital 
divide leaving rural consumers behind. Fortunately, issues 
addressed in the Act move us forward on several key areas.
    First, spectrum, the lifeblood of wireless carriers, is a 
finite resource only available from the Government. All 
carriers need access to spectrum at low, mid, and high bands to 
keep up with exploding demand for wireless services. This law 
contains provisions that operationally allowed the FCC to 
resume holding spectrum auctions, including the current and 
planned millimeter wave band auctions.
    It also directs the FCC to study incentives to put fallow 
spectrum to use to serve rural areas and directs the Government 
to identify additional spectrum that can be repurposed for 
mobile broadband use. Of particular focus for rural America, it 
provided an additional $1 billion to reimburse broadcasters as 
the incentive auction process moves forward, so that wireless 
carriers that bid over $19 billion to gain access to critical 
low-band spectrum can put that spectrum to use to serve 
consumers as soon as possible and no later than the 
congressionally mandated July 2020 deadline.
    Next, the law also focuses on mapping where broadband 
services are available. It is impossible to close the digital 
divide if we do not have a reliable map showing where service 
is and is not available. The law provided resources for NTIA to 
coordinate mapping, while separately directing the FCC to 
review mobile broadband coverage data for the purposes of 
distributing limited universal service fund support.
    This effort is particularly timely. Just last week, as the 
Mobility Fund Phase II challenge window came to a close, the 
FCC launched an investigation into the underlying data after a 
preliminary review of over 20 million speed tests triggered 
increased concerns that the initial map is fatally flawed. 
Congressional oversight and engagement with the FCC is 
necessary to make sure a real world map is in place before the 
FCC distributes nearly $5 billion in support. Funding decisions 
for Mobility Fund Phase II will determine which areas receive 
support for the next decade.
    Finally, the law takes important steps forward to support 
infrastructure deployment. From resiliency to permitting and 
accessing Federal lands, these policies provide carriers with 
increased certainty as they seek to deploy wireless services 
from coast to coast. As the law continues to be implemented, 
CCA and our members are at the forefront of closing the digital 
divide and to lead the world in next generation wireless 
services.
    As this committee well knows, there is more work to be 
done. We welcome the opportunity in the next Congress to 
continue to work with you not only to implement RAY BAUM'S Act, 
but also to build on these steps with additional bipartisan 
legislative efforts to enhance access to spectrum, base policy 
decisions on reliable data, and deploy the wireless 
infrastructure necessary for rural America to take part in a 
connected mobile future. Thank you for your leadership and 
congratulations on enacting this bipartisan bill into law.
    In addition, the reauthorizing of the FCC and updating 
several agency processes, it includes over a dozen important 
legislative proposals to close the digital divide. To borrow a 
phrase from Senator King, when it comes to closing a digital 
divide, their may not be a silver bullet but there is silver 
buckshot. And we want to continue to pursue all of these 
opportunities. We support these efforts as steps towards the 
overall goal of connecting Americans where they live, work, and 
play.
    I appreciate the opportunity to testify before this 
subcommittee today, and I welcome any questions you may have.
    [The prepared statement of Mr. Donovan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Mr. Cohen.

                 STATEMENT OF JEFFREY S. COHEN

    Mr. Cohen. Chairman Blackburn and Ranking Member Doyle, 
thank you for the opportunity to appear before you today on 
behalf of APCO International. APCO is the Nation's oldest and 
largest nonprofit organization of public safety communications 
professionals. It is an honor to be here, having previously 
worked with this subcommittee on detail from the FCC. This 
included the opportunity of having worked with Ray Baum, who 
was a kind and consummate professional that I enjoyed knowing.
    9-1-1 is the most critical of the Nation's critical 
infrastructure, largely due to the lifesaving work performed by 
9-1-1 professionals. They work long hours, often saving lives 
or improving the safety of the scene in advance of responding 
police, fire, and EMS units. For example, 9-1-1 professionals 
instruct callers through first aid, which can mean coaching a 
hysterical caller through CPR on a family member. They deserve 
recognition and respect for their lifesaving work, but, 
unfortunately, the Federal Government through a classification 
system managed by the Office of Management and Budget labels 
them as office and administrative support occupations. This 
must be corrected.
    In this regard, I would like to take a brief moment to 
thank Representative Shimkus and Representative Eshoo for 
joining with Senators Burr and Klobuchar to send a bipartisan 
letter to the Office of Management and Budget urgingOMB to 
revise the standard occupational classification to accurately 
represent the lifesaving nature of the work performed by 9-1-1 
professionals.
    I applaud the subcommittee for its work on RAY BAUM'S Act. 
The provision on location accuracy for 9-1-1 calls, which has 
its roots in Ms. Eshoo's RESPONSE Act, really hit the mark by 
directing the FCC to consider requiring a dispatchable 
location, meaning the door to kick down, for 9-1-1 calls, 
regardless of the technological platform used. A dispatchable 
location should be used and delivered with every 9-1-1 call.
    RAY BAUM'S Act also increased communications resiliency. 
For example, by calling for a study on the potential use of Wi-
Fi to contact 9-1-1 when mobile service is unavailable. APCO 
has expressed support for exploring Wi-Fi base methods for 
contacting 9-1-1, while noting it will be important to address 
any cybersecurity implications, methods of routing to the 
appropriate 9-1-1 emergency communication center, or ECC, and 
accurate location and callback capabilities.
    As to the spectrum-related provision of RAY BAUM'S Act, we 
appreciate the interest in finding additional spectrum for both 
unlicensed and licensed communications. When it comes to 
introducing new operations into bands used by public safety to 
protect and save lives, notably, 4.9 gigahertz and 6 gigahertz, 
APCO has urged caution. Our community is extremely wary of new 
spectrum use in bands used by public safety given the long 
difficult history of interference to mission critical 
communications. We have expressed openness to modern spectrum 
sharing techniques, provided that any sharing mechanism is 
proven in advance to protect public safety communications.
    I next would like to turn to some discussions for how we 
can make further improvements in emergency communications. We 
need a confidential contact database for carriers and ECCs to 
use in the event of outages or other issues that could impact 
9-1-1. The original SANDy Act would have directed the FCC to 
create such a database, but, unfortunately, this provision did 
not become law. When an outage could prevent 9-1-1 calls, the 
ECC needs to know how to contact the carrier to gather 
information that will assist with mitigating the outage's 
impact.
    Relatedly, ECCs need real-time situational awareness of 
communications network outages in an easily accessible format 
that could be integrated into 9-1-1 center equipment. As a 
consumer, when my power is out, I can go online to find block 
by block maps of impacted areas along with expected restoration 
times. Remarkably, ECCs do not have comparable information 
about communications network outages. With effective 
situational awareness, ECCs will be able to take proactive 
measures, such as staging responders or advising the public of 
alternate means to seek emergency assistance.
    Again, I thank you for the opportunity to present APCO's 
views. And, Mrs. Blackburn, thank you for your leadership of 
the subcommittee, and best wishes to you as you go to the 
Senate. Thank you.
    [The prepared statement of Mr. Cohen follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Mr. Zachary, you are recognized for 5 minutes.

                  STATEMENT OF BOHDAN ZACHARY

    Mr. Zachary. Thank you.
    Chairmen Blackburn and Walden, Ranking Members Doyle and 
Pallone, and members of the subcommittee, thank you for 
inviting me to testify today on the RAY BAUM'S Act. My name is 
Bohdan Zachary. I am testifying on behalf of Milwaukee PBS, 
where I am the general manager, and I am also testifying on 
behalf of the 161 public television stations' licensees across 
the country.
    The RAY BAUM'S Act helped ensure that local public 
television stations can continue our important public service 
work in areas of education, public safety, and leadership. We 
would like to thank the leadership of this subcommittee and 
full committee for providing the additional $1 billion in 
repacking funding, including $50 million for consumer 
education. We also appreciate the SANDy Act, which recognized 
stations' roles in emergency communications.
    The digital TV transition a decade ago highlighted viewers 
need for education about major channel realignments. Our 
experience in Milwaukee has proven that investing in extensive 
local consumer education is essential to a successful repack.
    We changed frequencies on January 8, 2018, because our 
licensee, Milwaukee Area Technical College, relinquished our 
channel 36 bandwidth in the auction, and we are now channel 
sharing on our other channel, channel 10. Milwaukee PBS 
launched a 3-month consumer education campaign ahead of the 
January 8 event. Our Plan to Scan incorporated on-air and 
online platforms and our presence in 11 counties in southeast 
Wisconsin. We have about 600,000 monthly viewers, some 38,000 
are financial contributors to our stations, the majority of 
whom are at least 50 years old.
    Making sure our viewers and donors knew how to find our 
channels after the repack was essential to sustaining our 
broadcast operations and community service. Milwaukee PBS 
interacts with our members and viewers on a daily basis in a 
variety of ways, ranging from live community engagement events 
to social media to a monthly viewer guide magazine, among 
others.
    Our repack plan always included having staff taking live 
calls from viewers using our pledge phone banks. We created 
spots talking about the change and ran the sprockets out of 
those spots on air, on our website, and in social media. We 
chose to far exceed FCC's regulatory requirements knowing that 
our Plan to Scan had to be explained over and over again to 
take hold in viewers' minds.
    In late fall, I was contacted by the local CBS in Sinclair 
stations which would begin channel sharing the same day as 
Milwaukee PBS. We issued a joint release about that. But on the 
day of the change, the two commercial stations had little or no 
capacity to take live viewer calls, so they started directing 
their callers to our phone lines. Our phone bank was open for 
13 hours on January 8. The response was so overwhelming that we 
added another half day on the 9th.
    Between the phone bank and other calls handled by viewer 
services, we received more than 800 calls over those 2 days, 
with some calls lasting as long as 1 hour. Some of the calls 
were very technical and station staff had to help viewers 
identify which brand television and remote they had and how 
they received our signal in order to help them rescan.
    We had a new wave of callers in May from snowbirds 
returning home to Milwaukee who had been out of State when our 
education campaign began. We were fortunate to be able to 
invest part of our auction proceeds in our consumer education 
plan. However, the 149 public television stations that are 
being involuntarily repacked do not have those same resources, 
yet they have the same urgent need to educate viewers.
    Public television can and should play a critical role in 
coordinating the consumer education efforts for their entire 
markets, both public and commercial, just like we did at 
Milwaukee PBS. Of the $50 million in consumer education 
funding, the FCC should dedicate a significant portion to local 
outreach initiatives, coordinated by interested public 
television stations for their entire market. We really can make 
a difference. This approach will ensure that every market has a 
robust, locally focused consumer education campaign that will 
prepare viewers for complex changes in their markets.
    The consumer education funding that Congress provided needs 
to be put to use as soon as possible if it is to have a 
beneficial impact. The Phase I deadline has already passed, and 
Phase II deadline is only 4 months away. Public television 
stations are working hard to repack successfully.
    We look forward to working with the committee and the 
Commission to complete this transition efficiently and 
successfully, just the way public television's dear friend, Ray 
Baum, would have wanted it. Thank you.
    [The prepared statement of Mr. Zachary follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    And that concludes our testimony, and so we will move to 
our question and answer portion.
    Mr. Donovan, I want to start with you. In RAY BAUM'S, we 
put some attention on addressing rural broadband deployment, 
which has been important to several of us on this committee as 
we have worked through, and some of that focused on spectrum, 
but most of it really focused on getting rid of barriers and 
obstacles and things that would hurt siting that would address 
existing infrastructure, so things that would help speed 
deployment.
    And I would like for you to talk for a couple of minutes 
about what your members are experiencing in terms of their 
ability to get equipment deployed and kind of where they are in 
this process. How is it rolling out?
    Mr. Donovan. Thank you. Thank you for the question. And 
there are several different provisions that were included in 
the law that do help on this. A lot of them that help for 
deployment in rural areas are focused on Federal lands in 
particular where there have been unique challenges in going 
through the permitting process and seemingly never ending 
delays. Some of those we are going to keep watching them as 
they are implemented.
    I think that at the top line, the message has gotten across 
that the agencies should prioritize broadband deployment. There 
still are some issues with local land managers, Forest managers 
on making sure that that process goes through at that level. 
Things like making sure we don't get into cycles where 
applications are deemed incomplete so shot clocks don't begin; 
things like continuing to build on Dig Once policies, 
especially along Federal right-of-ways that can make a huge 
difference as we seek to expand service.
    So we are excited about a lot of the provisions. We are 
coming up on some of the deadlines that were in there for days 
after enactments. So we are watching those closely and we will 
be sure to report back on the progress as it moves along.
    Mrs. Blackburn. Great. And when we talk about next year and 
next Congress, what do you see as the biggest challenges that 
are coming up for your members, and where should that focus be?
    Mr. Donovan. So our members are very excited about the 
opportunity to revisit a broader infrastructure package with a 
specific focus on broadband. We want to make sure that it is an 
all-of-the-above approach where--you know, streamlining helps, 
tax incentive helps, but we also need real funding to be able 
to get to the very hard-to-reach areas.
    I think as I talked about in my opening statement, though, 
we need to make sure before we move forward with some of these 
efforts that we update our data. Right now, to quote 
Commissioner Rosenworcel, at an event she was speaking on 
mapping earlier today, it is a mess, and we really do need to 
fix that so that we can figure out where we do need to take 
steps to streamline deployment.
    Mrs. Blackburn. Well, and let's stay with that because, you 
know, we have talked about that not only from the FCC, but the 
NTIA, and the farm bill is going to make certain that RUS is 
consulting, I guess would be the proper word, with these two 
entities. But when we talk about these maps and getting them 
cleaned up, talk about it in relationship to your members and 
the decision process they go through based on what is there 
with this map mess that we are trying to address.
    Mr. Donovan. So we, with the steps--the positive steps that 
we have made, is now there is starting to be some 
standardization across these maps. Carriers will report back 
data in what they are asked for, and the more precise you are 
is the more precise they can be, that helps make piece it 
together data from different carriers to have one map. If you 
are comparing apples to apples, it is a lot easier to build a 
map than if you are comparing across different standards. So we 
need to make sure that the ask for carriers on the front end is 
correct.
    What we have also learned is that you can't put the entire 
burden on fixing that map on carriers, on State governments, on 
local governments. The challenge process we have experienced in 
Mobility Fund Phase II is extremely onerous. And while those--
well, as I mentioned, over 20 million speed tests have been 
conducted; those have been overwhelmingly showing that there is 
not qualifying service. That is very concerning because our 
carriers only got to a small portion of the areas that they 
would have liked to challenge because of time restraints and 
resource restraints, as well as some that viewed the challenges 
just too big to even endeavor. So we need to go back and make 
sure we are fixing the underlying map so that we can actually 
take steps forward.
    Mrs. Blackburn. The gentleman yields--or I am going to 
yield back my time.
    And I thank you for the questions. Mr. Doyle. And I also 
want to remind Members, we are going to have votes at 3:45.
    Mr. Doyle. Thank you, Madam Chair.
    Mr. Donovan, I am going to stay with you. Are your members 
concerned that the proposed secondary market transition in the 
C-band could leave rural providers behind? And do your members 
feel like the FCC should play a greater role in any potential 
transaction in that band?
    Mr. Donovan. Thank you. And I appreciate your remarks in 
the opening about how critical the C-band is to broadband 
deployment. When we are talking about 5G, it is important to 
have low-band spectrum that has wide coverage distance. Higher 
band spectrum can support really fast speeds that we are just 
sort of starting to get a grasp of what that looks like. That 
C-band is so-called mid-band spectrum, it is kind of our 
Goldilock spectrum for it, so we really want to make sure that 
it is at the cornerstone of 5G build-out.
    As our members are reviewing different proposals, at this 
point, the FCC record fails to establish how a private sale 
could ensure the same procedural protections and market 
protections of an FCC auction. The FCC auction program has been 
tremendously successful, generating significant funds for a lot 
of purposes, from deficit reduction to creating funds for Next 
Gen 9-1-1 deployment, for reimbursing in the incentive auction 
example, broadcasters relinquishing spectrum. So that is a 
proven process. To move away from that, we haven't seen what we 
need to see yet to have faith that that is going to be the 
right solution.
    Mr. Doyle. Thank you. Let me ask you another question. The 
AIRWAVES bill that Representative Lance and I 
introducedincluded a rural dividend mechanism that would take a 
proportion of the spectrum auction revenue and put it towards 
broadband build-out. Do your members think this is an idea that 
has merit? And what impact would it have on deployment of rural 
broadband?
    Mr. Donovan. Thank you. It is a great idea. It has merit, 
and we hope to see that that idea comes back with the next 
Congress in whatever legislative vehicle you can put it in. CCA 
did commission a study on if this were in place before the 
beginning of the current millimeter wave band spectrums, I am 
happy to provide that to the committee if that is helpful. That 
shows not only immediate investment in rural broadband 
deployment, but also in the rural GDP with specific advantages 
in transportation and agriculture, in telemedicine. So it is an 
idea that certainly has merit and we would support continuing 
to push.
    Mr. Doyle. Well, I can tell you that I will be looking for 
a partner to take Mr. Lance's place on the Republican side as 
we reintroduce that bill.
    Mr. Cohen, let me ask you, in your testimony, you discuss 
the need for Federal investment to deploy Next Generation 9-1-1 
technology. I have seen estimates that this upgrade could cost 
upwards of $10 billion. Without investment by the Federal 
Government, how long would it take to deploy NG9-1-1 services 
nationwide?
    Mr. Cohen. Thank you for the question. If the past is any 
indicator, we are concerned it may take many years. And, in 
fact, some areas of the country may never transition to NG9-1-1 
in 10 years or more. It is 2018 now, and most of the 9-1-1 
networks across the country use technology that is upwards of 
50 years old. And even in a few areas of the country where some 
States or localities have attempted to start implementing pre-
NG9-1-1 facilities, it is costly, it is proprietary, and it 
lacks interoperability.
    So we have a lot of concerns already today. And without a 
big focus by the Federal Government, I think on Next Generation 
9-1-1 we really won't get there, especially not in a uniform 
fashion.
    Mr. Doyle. Thank you. My last question. Mr. Zachary, in 
your testimony, you discussed the challenges that consumers are 
facing as part of the incentive auction repack. Are you 
concerned that consumers are already being left behind as this 
repack has already begun? And what do you think are the 
consequences of not providing consumers with the information 
and resources they need to understand and adjust it to the 
changes that are coming?
    And I would ask Mr. LeGeyt the same question on how his 
members feel. We will start with you.
    Mr. Zachary. Thank you. I will begin, as a general manager 
of Milwaukee PBS, I can talk on behalf of what we do, and I 
think we mirror much of the rest of the country in that we need 
to provide, at no cost, by all means, the services that the 
public has become accustomed to getting from us. And I think 
without education, there are going to be a lot of viewers who 
are going to throw their hands up and not know what to do.
    What I didn't say in my testimony is we are still getting 
calls to this very day. Our head of engineering is still 
talking to people every day who are having problems. We are in 
a market that has--is the eighth highest usage of over-the-air 
digital antennas, and we have people calling, saying, I am 
losing signal----
    Mr. Doyle. Let me give Mr. LeGeyt the last 10 seconds.
    Mr. Zachary. Sure.
    Mr. LeGeyt. Thank you, Congressman, for the question. What 
I would simply add is that Phase I of this massive repack was 
just recently completed, and 11 stations were unable to meet 
their repack deadlines. As we move forward here, this repack is 
only going to become more complex. And our focus is on ensuring 
that no viewer is going to lose access to their station due to 
an inability to adhere to this very, very aggressive timeline 
that the FCC has laid out.
    Phase I indicated that there are going to be problems due 
to inclement weather, shortages in tower crews, and as these 
phases start to bump up against another and impact subsequent 
station moves, we forecast some real problems. So we look 
forward to working with this committee to ensure that the FCC 
implements a fair waiver standard.
    Mr. Doyle. Thank you. I yield back.
    Mrs. Blackburn. The gentleman's time has expired.
    Chairman Walden, you are recognized.
    Mr. Walden. Thank you, Chair.
    I want to continue down this path, because, obviously, when 
we wrote this legislation back in, what, 2012, I think, we gave 
the length of time to do the repack and all of that, and I 
think we all thought there might have to be some give and take 
here. And yet, you got people who bought spectrum and are eager 
and ready to get that investment on the ground. So if as we go 
forward you can give us some suggestions about what we should 
be focused on, I think that would be really, really helpful. 
And I think what you are talking about in terms of these 
exemptions, individual ones, may make some sense. But there is 
going to be a lot of pressure to get this done too, as you 
know. And now, I think we have the money in place.
    I want to go to you, Mr. Donovan, because we are starting 
to see some tangible developments already in my district and 
State, and I would like to enter into the record some 
documents. One is T-Mobile 600 megahertz deployment in Oregon, 
another is their 600 megahertz coverage enhancement plan for 
Oregon, and a list of cities and towns where T-Mobile has 
deployed 600 megahertz spectrum.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. This is really important. I did a roundtable 
out in my center part of my district, in John Day, and just to 
put this in perspective, on the digital divide piece--and it is 
not the wireless, but it all plays together eventually--there 
is a town called Seneca where apparently their broadband had 
been down, such as it is. It had been down for like 6 weeks. 
The city manager in this tiny, tiny little town had to drive 25 
miles to get coverage at another town to be able to do her job. 
We are working on some of those issues.
    And when we left this town, we needed to gas up at John 
Day, and we had to pay cash because the online system in John 
Day was down, so the gas station couldn't take credit cards. So 
this is like real life stuff out there. And this community 
applied for a grant from USDA to help close the digital divide 
there because there is virtually nobody there. And so this is 
where I think the Government can play a role. They were denied 
on that grant because their plan didn't have an economic model. 
Well, guess what, if you got a town of like 80 people or 30 
people or whatever out along somewhere else, there is no 
economic--that is why we put these programs together.
    And so as we build out the wireless networks and the work 
that T-Mobile and others are doing, they are just one carrier, 
obviously, that is going to be important, but we have still got 
this issue of getting the backhaul and the fiber out and having 
enough capacity.
    Literally, they had a big fire through this town a couple 
of years ago, and they are trying to rebuild some of the homes, 
and one of the issues is once you are off, you are off, and 
there is no Wi-Fi coming back--there is no connection coming 
back. They won't put you on the system that does exist. So, I 
mean, all the work we are doing and then you find out it is not 
getting to the ground.
    So I would love to hear you talk about--a little bit about 
what you are seeing in terms of this law and this spectrum and 
what it means for wireless communication. And with all of us 
going to these devices that seem to be attached to every hand 
in the audience and here, what do you see? Are we going to get 
there?
    Mr. Donovan. Thank you, Chairman Walden. And I really 
appreciate your point about the carriers that have showed up 
and spent money at the auction, especially smaller, local-based 
carriers. They essentially mortgaged the farm to go buy the 
spectrum, and until they can put it into use, can't start 
monetizing that. And they are the carriers--but the business 
plan is that they live there, which is why they are working to 
invest in the communities where they live and make sure that 
they have the services that everyone wants.
    I think oversight is going to be very important as the law 
continues to be implemented. As I mentioned, we are just 
starting to come up on some of the 270-day deadlines, et 
cetera, so we will want to keep watching that, as well as there 
is a whole slew of--dozens of additional infrastructure 
deployment bills that were introduced earlier this year that we 
had several hearings on, things ranging from, you know, only 
requiring studying the actual area that is going to be 
disturbed land. It seemed like some common sense things that we 
would like to see picked up, and if there is an effort to 
revisit an infrastructure package to be included in that as 
well.
    Mr. Walden. Yes, I think the siting, 55 percent of my 
district is public lands. And I know very well these siting 
problems, trying to get anything done is a real, real 
challenge. The town of Mitchell had--I think it was 3 years to 
get four power poles put in the ground so they could get 3-
phase power for the first time, because it went across BLM 
ground. By the time you do all the environmental, people just 
go, how is this so? And so there is a lot to be done.
    I agree with you on the mapping; it is something I 
complained about when the stimulus was done in the Obama 
administration. I complained about it in this round in the 
mobility grants. We have got to find out where there is 
coverage and where there isn't before we go spending money and 
streamline the siting and close this digital divide in America. 
And I think that is something we can agree on in a bipartisan 
way here going forward.
    But what I don't want to see is a bunch of public money 
then thrust into areas that already have service and overbuild, 
and places like Seneca and John Day and everywhere else are 
left off even a two-lane digital road, not a superhighway by 
any means.
    I know my time has expired, Madam Chair. Thank you.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Eshoo, you are recognized.
    Ms. Eshoo. Thank you, Madam Chairwoman.
    I want to compliment each one of you because I think you 
have given terrific testimony. I mean, it is understandable, 
and the things that you have shared with us are also very 
practical.
    Mr. Zachary, I want to work with you to resolve the issue 
that you highlighted. And I love what you said about Ray; I 
think that Ray would have wanted it this way. So you got a hook 
in me when you said that. Plus, it is public broadcasting, 
which I love.
    To Mr. LeGeyt, thank you for representing the broadcasters. 
I have a curiosity question. How much money has been raised 
from the auction in dollars from the broadcasters? Do you know?
    How much have they given--you know, I mean, they were paid 
for what they gave up.
    Mr. LeGeyt. Right. So that number is in the universe of $12 
billion that went to the broadcast industry.
    Ms. Eshoo. Wow. That is really something.
    To Mr. Donovan, it is good to see you. Hope the babies are 
well.
    You know that we had these tragic and devastating fires in 
California, and I think they have highlighted how vulnerable 
our telecommunications infrastructure is to these natural 
disasters.
    Let me ask you, do you think that there are any Dig Once--I 
mentioned it in the statement that I made, about Dig Once and 
building on what we finally got to do. Do you think that there 
are policies that would help protect this infrastructure from 
natural disasters like the wildfires we had in California?
    Mr. Donovan. Well, thank you, Congresswoman Anna--
Congressman Eshoo--sorry.
    Ms. Eshoo. That is all right.
    Mr. Donovan. I think you know what I meant.
    Ms. Eshoo. I know it is hard for men, yes.
    Mr. Donovan. Well, that is the way my daughter still refers 
to you, so--she says your name. So thank you.
    And, you know, Dig Once policies can certainly help with 
some of the fires, actually twofold. By undergrounding some of 
these resources, there is an additional layer of protection. 
But then, also, during the recovery point, we deal with 
problems of fiber cuts from crews that are going into recover, 
to clean up. They are doing their jobs; they are not 
intentionally----
    Ms. Eshoo. Right.
    Mr. Donovan [continuing]. Cutting the fiber, but can 
sometimes undo some of the recovery efforts that carriers have 
already begun.
    So it actually would have twofold benefits by increased 
focus on Dig Once policies. So we are certainly not tired of 
hearing you talking about it and hope that we can continue that 
discussion.
    Ms. Eshoo. Uh-huh. Thank you.
    To Mr. Cohen, nice to see you again.
    I just want to take a moment on location accuracy for 9-1-1 
calls. I have been after this one, with others, as you know. I 
think it is a very important issue, and the subcommittee has 
recognized that, because we have been working on it for several 
years.
    In your opinion, do you think that Congress and the FCC are 
making good progress on improving locations for 9-1-1? How 
would you rate it? I like ratings, you can tell today. I am 
into ratings.
    Mr. Cohen. I would rate it pretty good. We are thrilled 
with the RAY BAUM'S Act because dispatchable location is 
something that we have been championing for a long time.
    Ms. Eshoo. I know you have.
    Mr. Cohen. For example, if I call 9-1-1 from this room, I 
want the DC office 9-1-1 center to get the street address of 
this building and know I am in 2322.
    Ms. Eshoo. Right.
    Mr. Cohen. And it is as simple as that. And it shouldn't 
matter what way I contact 9-1-1.
    So we are glad that the FCC started its proceeding. Its 
comments were just due yesterday. We will look forward to 
reviewing the comments of others and staying active in this 
proceeding.
    Ms. Eshoo. I hope that ABCO will stay on the issue of the 
Next Gen 9-1-1 Act. It got kind of bolloxed up or lost 
someplace in this Congress, which is not unusual, for that to 
happen to legislation. But we will look forward to working with 
you in the new Congress on that, because it is unfinished 
business that needs to be--we need to close the loop on it----
    Mr. Cohen. Fully agree.
    Ms. Eshoo [continuing]. And we will all be better off.
    So thank you to all of you for your important work and your 
testimony. And every blessing to everyone in the new year. 
Thank you.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Shimkus, you are recognized.
    Mr. Shimkus. Thank you, Madam Chairman.
    So we have tried to remove barriers, increase spectrum, and 
address public safety issues, as we have talked about, in the 
overall processes.
    So I want to start with public safety. I am still hearing 
concerns about incorrectly routing in my district. Is that a 
national concern still? And then, also, can you speak to the--
which I raise all the time, which is the fee diversion 
discussion?
    Mr. Cohen. Sure. Thank you, Mr. Shimkus.
    Routing, yes, has its challenges in wireless because of the 
way it is done today by the location of the tower that handles 
the call. And because technology has continued to improve, it 
is not necessarily the case that the closest tower is the one 
that is handling your call. That is something that can be 
rectified in a next-generation 9-1-1 environment, but it is 
also something the FCC is exploring, and we have been active in 
that.
    When it comes to MLTS, in our comments just yesterday, in 
addition to direct dial, in addition to dispatch location, we 
pointed out that you also need to be able to route to the right 
9-1-1 center, as well as get a callback number.
    So I agree that routing is still an issue, and hopefully we 
will be solving these issues going forward.
    You also asked about?
    Mr. Shimkus. Fee diversion.
    Mr. Cohen. Fee diversion. Fee diversion is a terrible 
practice. And, frankly, we feel like, in order to end it, it 
really has to hurt the States. They are making choices to 
divert fees, and they need to have something that hurts more 
than doing that.
    Our recommendation, along with the fact that we would like 
to see the Federal Government help fund a large transition to 
next-generation 9-1-1 across the country, if the grant program 
is sufficient enough and the cost of losing that money is large 
enough, that could end fee diversion right there.
    Mr. Shimkus. Thank you.
    Let me go to Mr. LeGeyt.
    There were some of these repackaging and tower sitings that 
finished ahead of schedule, did they not? That was kind of 
helpful with at least this problem of some of them not being 
late.
    And we know in your written testimony, you talked about the 
Springfield, Missouri, issue and then that crew and then they 
couldn't go up north. What is your analysis on tower training 
and the availability of the workforce?
    Mr. LeGeyt. Congressman, thank you for the question.
    I think if there is one lesson from the first phase of the 
auction, it is that there is not enough tower crew 
availability, especially high tower crew availability, to deal 
with the amount of work that is there. I have a list here of 
the 11 stations who are unable to complete their Phase 1 moves, 
and in nearly all of the instances, tower crew availability 
played at least some role.
    So to say exactly what the right number should be, I think 
as we move forward to phases of the auction where the vast 
majority of the remaining broadcasters and other, effectively, 
850 full-power stations are going to be repacked over the next 
2 years, layer on top of that those low-power stations and 
translators that have been displaced, that is a lot of work. 
And we are dealing with a very small number of crews who can 
get up and operate on a 2,000-foot tower.
    So the need is very, very real. What the solution is, I 
think, is more complex.
    Mr. Shimkus. Great. Thank you.
    I want to end on two things.
    One, I have a rural water cooperative that has partnered 
with a rural telephone cooperative, where they lay the fiber 
underneath the water pipe as they are going out to places that 
aren't served. So it is really kind of a Dig Once. But it has 
been done locally. I applaud them for it. I think they had to 
go through the State commission for some approval. But I am 
just very proud of their thinking about doing it one time, 
which will be helpful.
    The other thing is--I have always highlighted is mapping, 
but didn't really raise itself up to the real problem until I 
met with some small providers, really, last week. And the 
different--we used to call them pipes--the different pipes of 
delivering high-speed internet access really have two different 
ways to identify service. You know, if it is a fiberoptic cable 
to a phone, well, you know. You know it is there. But if it is 
cellular signal, it is a circle.
    And so I am not sure how we will ever get good mapping. But 
I think the point being is we should be able to have an appeal 
process in some of these grant programs and low-interest loan 
program that are saying, ``Oh, there is a map that covers this 
area, there is already competition,'' when there may not be 
competition in that area just because it can't be served.
    So, something that was raised to me and made more sense as 
I have talked to the providers and something I am going to 
follow up on.
    With that, thank you, Madam Chairman, and I yield back my 
time.
    Mrs. Blackburn. The gentleman yields back.
    Mr. McNerney, you are recognized for 5 minutes.
    Mr. McNerney. Well, I thank the Chair, and--well, you 
switched with Ms. Eshoo. I thank the Chair.
    And, first of all, I want to have my voice join the chorus 
congratulating the chairwoman for her elevation to the Senate. 
You have been a lady, and despite whether we agree on things, 
we have spoken respectfully to each other, and I appreciate 
that.
    Mrs. Blackburn. Absolutely. Thank you.
    Mr. McNerney. I also want to say, I thank the panel for 
coming today and preparing--it is not easy, I am sure--but I 
would rather this be an oversight hearing where we have 
Commissioners in front of us to see what the Commission feels 
about the success of the RAY BAUM'S Act and how to improve it.
    Mr. Donovan, the RAY BAUM'S Act includes the Improving 
Broadband Access for Veterans Act that Mr. Kinzinger and I 
introduced. This legislation requires the FCC to examine the 
state of veterans' access to broadband internet service and 
what can be done to increase access, with a focus on low-income 
veterans and veterans in rural areas.
    The FCC must seek comment in the proceeding and 
subsequent--and submit a report to Congress with findings and 
recommendations by March of 2019.
    What are some of the ways in which the broadband internet 
service can help veterans living in rural areas?
    Mr. Donovan. Thank you for the question and for your work 
on that important provision that was wrapped into the final 
package.
    There are so many ways that broadband access can help 
veterans as they return home, from education and vocational 
training to telehealth services, to mental health services, to 
just outreach and connectivity so that they can still feel part 
of a unit. We have heard that many times over. So those are all 
important services, and you don't have access to any of them if 
you don't have that basic connectivity. So that is so 
important.
    One way that I hope the Commission does look at solving it 
is--we had some discussion today about crew availability for 
broadcast towers. I would highlight one program called Warriors 
for Wireless that specifically focused on training veterans to 
have the skills to become tower climbers and identifying a need 
where we have a need for additional crews and finding a 
workforce that has really been quite successful in programs 
like this.
    Mr. McNerney. Well, thank you. The Commission should be 
looking at ways to improve broadband access and adoption for 
veterans rather than impeding veterans' ability to get 
connected. The current Lifeline proposal pending at the 
Commission would devastate access and service to 1.3 million 
veterans across the country who depend on this crucial program, 
and I urge the Commission to abandon that proposal.
    Mr. Zachary, recognizing the consumer confusion that has 
resulted from stations moving as a part of the spectrum repack, 
which you discussed, Congress directed the FCC to spend $50 
million for customer education on the RAY BAUM'S Act.
    As your testimony demonstrates, despite outreach efforts, 
consumers flooded your station with calls. As the repack 
process proceeds up next year, I am concerned that consumers in 
many more cities won't be prepared. Do you know what the FCC is 
taking--what steps they are taking to educate consumers with 
funds it received?
    Mr. Zachary. I will admit that I do not have knowledge of 
what they are planning with the $10 million education fund.
    I do know that in the public television system we are 
equipped, because, as we were talking to our viewers in our 
area on a daily basis in any number of meetings, we can be the 
ones who can best facilitate getting that message out.
    And because we do fundraising drives four times a year, 
sometimes more, to raise funds, we are equipped with phone 
banks. We know how to work it. And that is why we so much would 
like to be part of this effort. I think we can really make a 
difference in educating of consumers.
    Mr. McNerney. Well, do you think the FCC can be more 
transparent in its efforts to educate consumers?
    Mr. Zachary. I would like them to be.
    Mr. McNerney. Thank you.
    Back to Mr. Donovan, the proliferation of the internet-of-
things devices is transforming the world around us. By 2020, it 
is expected there will be 20 billion to 50 billion devices 
connected around the globe. And many of the devices are 
expected to have very weak security provisions that are 
susceptible to attack.
    Would you agree that we should be concerned about the large 
number of IOT devices today and those coming onto the market?
    Mr. Donovan. Yes, I would.
    I was talking with one of our rural carriers last week in 
Wyoming who has identified a potential 8 million new 
subscribers for their network, but 5 million of them are cows 
and 3 million are sheep. So these are going to be, you know, 
very small devices connecting them onto the grid.
    It is important to make sure that we have the cybersecurity 
components taken care of before you have that type of 
escalation of devices contacting the network.
    Mr. McNerney. I want to finish by saying I introduced the 
Securing IOT Act to establish cybersecurity standards for IOT 
devices in this Congress, and we are going to be reintroducing 
something like that in the next Congress.
    Thank you. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Latta, you are recognized.
    Mr. Latta. Well, thank you, Madam Chair. And before I get 
started, I would just like to also congratulate you on moving 
over to the Senate and Senator-elect. And we look forward to 
working with you and accomplishing great things in the years to 
come. So congratulations on that.
    I also want to thank our panel of witnesses for being with 
us today. We greatly appreciate the opportunity to hear from 
you all.
    And, Mr. Donovan, if I could start with you, it is my 
understanding that many of your members are wireless carriers 
for rural areas. And earlier this year, I introduced the 
Precision Agriculture Connectivity Act with my friend, the 
gentleman from Iowa, that is also now included in the farm 
bill, that requires the FCC and the USDA to collaborate on the 
best ways to meet broadband connectivity and technology needs. 
Precision agriculture keeps America's farmlands competitive 
internationally.
    Whether it is Internet of Things devices, self-driving 
machinery, drones, or satellites, precision agriculture 
requires more ubiquitous broadband at higher speeds with less 
latency.
    Would you tell the committee how the Precision Agriculture 
Connectivity Act complements provisions enacted as part of the 
RAY BAUM'S Act?
    Mr. Donovan. Certainly. And congratulations on advancing 
that bill forward, and especially with the inclusion in the 
farm bill. I know it was quite a lot of work to get it there, 
so congratulations.
    Mr. Latta. Thank you.
    Mr. Donovan. We really appreciate the way that the bill 
focuses on the need for connectivity not just where people live 
or over roads but over agricultural lands, farmlands, 
ranchlands. That is something that Secretary Perdue has really 
focused on.
    I think using that hand-in-hand with the provisions of RAY 
BAUM'S Act, some of the things we have already talked about, in 
terms of streamlining deployment, getting fiber further out, 
that is going to allow you to then serve the last mile with 
wireless coverage over farms so that you can have all these 
precision agriculture technologies that are coming online.
    We joke with some of our members that we have had 
autonomous vehicles in rural areas for years; they are just 
painted John Deere green.
    So we want to make sure we can continue to have that type 
of functionality that is letting farmers use fewer resources, 
have higher yields, and really helping drive the economy 
forward.
    Mr. Latta. Well, thank you.
    Let me follow up. Accelerating wireless broadband 
deployment is a national priority because study after study 
tells us that wireless broadband deployment drives economic 
growth, employment, and investment.
    In the RAY BAUM'S Act, we appropriated an additional $1 
billion on top of the existing $1.75 billion to reimburse 
broadcasters for the costs incurred as a result of the repack 
and enable a smooth transition and make their spectrum 
available for innovative, new wireless broadband deployments.
    What more needs to be done to allow for faster wireless 
broadband deployment in the form of broadcast spectrum?
    Mr. Donovan. I think the whole panel would agree with me in 
thanking you for the additional billion dollars to make sure 
that we can continue to stay on track.
    I think, going forward, the two things that can help most 
are setting expectations and promoting accountability. You 
know, expectations for broadcasters, for consumers so we can do 
those educational efforts, but expectations that let us--we are 
now 60 percent more broadcast stations have been cleared than 
the FCC had projected we would be at this point. So, while we 
have had some waivers that are necessary, it is clear that they 
have built some of that into the system.
    So we want to make sure that we promote the expectation 
that we will stay on this timeline so people can find creative 
solutions to keep moving forward.
    Mr. Latta. Let me follow up with Mr. LeGeyt.
    I believe that no one in this committee wants or intends 
broadcast viewers to lose service due to the repack. Would you 
like to comment on the repack?
    Mr. LeGeyt. Absolutely. And thank you for the question.
    Broadcasters are absolutely committed to doing exactly what 
Mr. Donovan just suggested, which is to move as quickly through 
this repack process as is possible. We have every incentive to 
put this repack behind us and ensure that we are focused on 
serving viewers across the country.
    While Phase 1 was largely successful, there are clear 
warning signs that derived from it--namely, what has already 
been mentioned by several Members, which is just the 
variability caused by tower crew availability as well as 
inclement weather.
    You know, KBLY, an NBC affiliate in North Dakota, I think 
is a very, very good example. It began its work to make its 
Phase 1 station move more than a year ago. The crew that was 
expected to begin work on its antenna in September was 
prevented from starting that work due to a tragic accident in 
Missouri. It is a 2,000-foot tower, so there is a limited 
number of crews that can work to do that move. You are talking 
about equipment that is several tons. You are in North Dakota, 
where you have major winds, inclement weather. So, as you start 
going further into the fall, you are going to face those types 
of delays that prevent work on given days.
    So, due to reasons outside of its control, KBLY was not 
able to complete its move on time. The FCC understood that, 
granted it a waiver to move into a later auction phase.
    But as we move forward here, I would just urge this 
committee to be working closely with the FCC to ensure that any 
station that faces those types of delays, which will interfere 
with its ability to reach and serve their viewers, is dealt 
with in the same fair manner.
    Mr. Latta. Thank you.
    Madam Chair, my time has expired.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Loebsack, you are recognized.
    Mr. Loebsack. Thank you, Madam Chair.
    Before I ask my questions, I do want to thank you, Madam 
Chair, for your leadership on this committee. And, quite 
honestly, I am going to miss you calling me Broadband Loebsack 
as you go over there. I tell everybody you call me that. I 
think it is indicative of the bipartisan work that we have 
done. But I want to keep working with you, even though you will 
be in the other body. So thank you so much.
    Also, there has been so much talked about today that has to 
do, obviously, with rural areas such as mine in Iowa. I think 
we have real opportunities going forward. While we Democrats 
will be in the majority, I think we can continue to work across 
the aisle on a lot of issues, because those of us in rural 
areas are not just Democrats or just Republicans. There are a 
few more Republicans, but there are a lot of Democrats as well. 
So I want to continue to do that work across the aisle, as I 
have been able to do the last few years now, 4 years I have 
been on this committee.
    And I do want to thank my friend and my classmate from 
2006, Mr. McNerney, for bringing up the veterans issue. I am 
going to get to the tower crew thing in a second here, but I 
think we have real opportunities to incorporate some of our 
concerns about our veterans and the skills that they have 
developed. We had a couple Marine children who have done 
multiple deployments, and I have visited a lot of our troops 
overseas. And they acquire, I think, a lot of skills often that 
they can apply then when they come back home, and we don't 
utilize them enough in a variety of ways. So that is really 
important.
    The first thing I do want to talk about, though, is the 
Rural Wireless Access Act. And we have been talking about 
mapping without talking about that specific legislation, 
obviously, up to this point. And I worked with Mr. Costello on 
that. Unfortunately, he is leaving the Congress soon, but we 
worked across the aisle on that.
    And I think I know the answer, Mr. Donovan, to the question 
I am going to ask--the first question I am going to ask you. Is 
the FCC implementing the Rural Wireless Access Act, yes or no?
    Mr. Donovan. No.
    Mr. Loebsack. Thank you. I thought that is what you would 
say.
    And with the recent announcement from the FCC, which I have 
here in my left hand, that they will be launching an 
investigation--and we have talked about this already today--
into whether major carriers violated the Mobility Fund Phase II 
reverse auctions mapping rules and submitted incorrect coverage 
maps, it seems like it will be some time before the FCC begins 
to fulfill the congressional directive to improve these maps.
    And with the recent investigation in mind, what do you 
think should be the next steps for making sure Congress and the 
FCC can work together to improve these maps?
    Mr. Donovan. Well, thank you. And congratulations again on 
including the Rural Wireless Access Act into the law.
    I think the investigation is important and the FCC should 
continue it. Implementation has been held up on your bill in 
part because it was required to be done no later than 180 days 
after the auction is complete.
    Mr. Loebsack. Right.
    Mr. Donovan. I think what the investigation makes clear to 
us now is that it is vitally important that we standardize that 
data before we move to the auction.
    Mr. Loebsack. Right.
    Mr. Donovan. So we would like to work with you to make sure 
that that is the case.
    Your bill requiring standardization of the data is very 
important so that we do have an accurate map and we don't have 
this whole challenge/problem, now leading to an investigation.
    Mr. Loebsack. Right.
    And speaking of maps and coverage and all the rest, Mr. 
Walden and I, we had a conversation prior to the election about 
something I had to call him about. And he reminds me that his 
district is bigger than my State. And we had to go back and 
forth a number of times, and we had dropped calls once we got a 
hold of each other. So I would like to see what those maps show 
about his part of Oregon and my part of Iowa. I think they 
would be pretty inaccurate.
    Mr. LeGeyt, I would like to direct my next question to you. 
A bill that I have been working on with Markwayne Mullin from 
Oklahoma, the Communications Jobs Training Act, would create a 
grant program to help train more people who would do the work 
of erecting and maintaining these communication towers, these 
towers that we have been talking about and you have been 
talking about the crew shortage.
    My question to you is, what do you foresee in terms of 
demand for these sorts of jobs? You have mentioned some 
instances where they didn't have enough crew.
    Mr. LeGeyt. Thank you, Congressman, for the question. And 
this is an important problem, one that you have foreseen in 
introducing your legislation, so I want to thank you for that.
    I think I would point you to a submission that a number of 
tower workers and equipment manufacturers made to the FCC a few 
weeks ago, and I am happy to provide it to you, where they say 
the following. They outline a number of factors that have 
contributed to delays but conclude by saying: The broadcast 
tower representatives believe they are witnessing the effects 
of an unrealistic expectation of what the repacking of 987 
stations entails, and the factors cited above have resulted in 
demands on the rigging community that simple cannot be met.
    Mr. Loebsack. Wow.
    Mr. LeGeyt. So, as it relates to your legislation, the need 
is unquestionably there. This is a submission by the 
representatives who are doing the work themselves. So would 
very much look forward to working with you on that legislation.
    Mr. Loebsack. And hopefully in the next Congress, we can 
get that accomplished and, again, on a bipartisan basis.
    So thanks to all of you for testifying today.
    Thanks very much, Madam Chairman.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Guthrie, you are recognized.
    And I remind everyone, the bell will ring for votes at 
3:45.
    Mr. Guthrie. OK. Thank you, Madam Chairman. And, again, 
congratulations to you on your move to the Senate. Hopefully 
the Senate will keep the same schedule and we can still fly 
together every week. Thanks.
    For Mr. Donovan, I want to talk to you first. We were 
pleased to have the Spectrum Auction Deposits Act included in 
the RAY BAUM'S Act. So I will start with giving you an 
opportunity to comment on how you have seen this provision 
affecting the prospect of getting more spectrum to market.
    And, second, with regard to 3.5 in particular, as I have 
heard from one of your members and my constituents, Bluegrass 
Cellular, how do you see this Commission rulemaking affecting 
broadband access going forward?
    Mr. Donovan. Again, Congressman, thank you for your work on 
the Spectrum Auction Deposits Act, you know, as a bipartisan 
basis. That really is--I can't overemphasize how important that 
is. We would not be having the auction that is underway right 
now nor any of the auctions that are coming after it had that 
not been signed into law.
    There is a fundamental problem where, operationally, the 
FCC was unable to find a way to collect the deposits in line 
with the current law, so that law had to be fixed. And so this 
was common sense, and we were really pleased to support that 
effort along the way.
    With regard to 3.5, thank you for your focus on this. This, 
again, is that important midband spectrum that is going to be 
so critical to 5G deployments. Bluegrass joined along with 
another 20-plus CCA nonnationwide carriers to make sure the FCC 
understood the importance of getting the license size right, 
finding the compromise on a county basis being that ideal spot 
where rural carriers were able to get access to spectrum but we 
still could use the right technical standards to deploy 4G 
services today and 5G services tomorrow in that important band.
    Mr. Guthrie. Thank you.
    And continuing, Ms. Matsui and I introduced a bill earlier 
this year, the SPECTRUM NOW Act, that would provide access to 
SRF resources for Federal agencies to carry out R&D related to 
feasibility studies. As we have seen, these studies are 
extremely expensive, and we have limited options given the 
constraints of CBO's spectrum scoring.
    Can you speak to the effectiveness of this bill's approach 
of giving Federal agencies more incentive to undertake spectrum 
R&D?
    Mr. Donovan. I think it is very important. And having the 
ability to do the R&D work can help show where spectrum can be 
more efficiently used, both for Federal operations but as well 
for reallocating spectrum.
    Importantly, Administrator Redl at NTIA recently launched 
an initiative asking all Federal agencies to report back on 
their anticipated spectrum needs over the next 15 years. That 
work, going hand-in-hand with R&D, can show what spectrum is 
needed to complete the mission and what spectrum can be 
repurposed for broadband use.
    Mr. Guthrie. Thank you.
    Actually, you answered in that one my next question. Ms. 
Matsui and I are also working on a bill for more resources to 
NTIA to carry out independent R&D activities. So I was going to 
ask you what you thought, if they needed resources.
    Anybody else want to talk to that? You have really kind of 
answered that, but anybody else on the panel want to talk about 
more resources for NTIA?
    There aren't any? Well, good.
    Well, there be no one else wanting to talk, I will yield 
back my time.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Clarke, you are recognized.
    Ms. Clarke. Thank you very much, Madam Chair.
    Thank you, Mr. Ranking Member.
    To our panelists, thank you for lending your expertise 
today.
    I wanted to move into the space of the SANDy Act within the 
context of RAY BAUM'S. And I will start with Mr. Cohen.
    How have public safety communications fared during recent 
disasters, like Hurricane Michael or the wildfires in 
California? Have things improved, or is there more that we 
should be doing?
    Mr. Cohen. Thank you for the question.
    I have more information about Hurricane Michael and not so 
much yet from the wildfires.
    Ms. Clarke. Uh-huh.
    Mr. Cohen. Those kind of disasters are so severe that they 
can knock out communications, period. And one thing I know is 
that, from the 9-1-1 side particularly, 9-1-1 professionals man 
their stations and they are dedicated. And that is also when 
their own homes and families are affected by the same 
emergency. They also are very creative. And they will lose 
service, they will lose connectivity.
    I do know of a few examples like where FirstNet came in and 
helped restore connectivity between a police station and the 
State EOC, emergency operations center; another instance where 
they helped provide macro cellular service to a 9-1-1 center.
    And even in some cases, I heard that while the wireline 
connections for the 9-1-1 centers failed, what they ended up 
doing was using cell phones and giving out a 10-digit number to 
the public, including one that was serviced by a FirstNet 
phone, so that the public could actually call 9-1-1 without 
calling 9-1-1 specifically.
    Some lessons learned so far, which is things that we have 
talked about already, is we also heard from the people that are 
affected in these circumstances. We had asked them the 
question, would you have benefited from a contact database to 
know who to call? They said absolutely, and we still don't have 
something like that. And also just to have situational 
awareness in a real-time, integrated format of where outages 
are occurring.
    Thank you.
    Ms. Clarke. So, just to add to that, the ranking member and 
a number of us on the committee wrote a letter to Chairman Pai 
urging him to update the FCC's resiliency framework and expand 
it beyond wireless carriers. It has not been addressed yet. It 
is long overdue. And we need bold action to protect Americans.
    So I understand that the FCC is collecting data regarding 
the framework, but has it taken any steps to make it mandatory 
or to expand it beyond wireless carriers?
    And I think that that goes hand-in-hand with the 9-1-1 
operators. No one is blaming the operators. We are concerned 
about the infrastructure and the resiliency around it.
    Mr. Cohen. Right. No, to my knowledge, the FCC has not yet 
taken any concrete steps. They have sought comment.
    We would like to see certain things codified, a couple of 
things I just mentioned. And also I think it would be important 
to extend the framework to other service providers.
    Ms. Clarke. And how should the FCC expand the framework to 
improve public safety? Would you say it is beyond the wireless 
carriers? How would you describe it?
    Mr. Cohen. Yes, I think that the cooperative framework the 
wireless careers voluntarily agreed to was a very good first 
step. And it stemmed from the SANDy Act, the original SANDy 
Act.
    But to codify some of these things would be helpful, 
because then there is a mechanism for oversight. So we would 
support that, and especially the few items I mentioned--a 
simple thing like a contact database and the situational 
awareness piece, which is important not just in disasters. If 
there are outages in a network affecting one neighborhood, a 9-
1-1 director needs to know that.
    Ms. Clarke. Uh-huh.
    Mr. Cohen. And then, of course, yes, extending that model 
to other service providers, I think, would be very helpful for 
all stakeholders.
    Ms. Clarke. Very well.
    Madam Chairwoman, before I yield back, I just wanted to 
wish you all the best on the Senate side. I appreciate the 
relationship and the bond that we have established through the 
work on this committee, and I wish you all the best. Look 
forward to working with you on the other side of the Capitol.
    I yield back.
    Mrs. Blackburn. And the gentlelady yields back.
    Mr. Olson, you are recognized for 5 minutes.
    Mr. Olson. Well, good afternoon. I would like to open with 
what is called a point of personal privilege. I want to thank 
our chairwoman for her service to America and Tennessee. She is 
now leaving this body for a body I spent 9 years working at as 
a Senate staffer.
    I encourage you, my dear friend, don't get too close to Mr. 
Buster, Phil E. Buster. He is not nice to work with here in the 
House.
    I hope you remember your Davy Crockett and Texas roots as 
you move on to the Senate. Fair winds and following seas, as we 
say in the Navy.
    And you all witnessed a bipartisan act of theft. Right 
before me, Ms. Clarke stole my question about resiliency. So I 
won't go over that again. Suffice it to say we have learned 
lessons from the recent--from Harvey, from Irma, from Maria 
that were applied recently with Michael and the fires, so that 
is great progress.
    My question is for all if you want to chime in, but 
basically it is on disaster recovery.
    Mr. Cohen, you mentioned that our 9-1-1 infrastructure is 
very, very old, 50 years old, and has to be rebuilt. One 
problem we are having back home, it is a good problem to have, 
but my hometown of Sugar Land has started what is called 3-1-1. 
It is basically the same premise as 9-1-1, but it is for 
nonemergency calls--hey, a pothole; a tree has fallen down; I 
have lost a pet.
    We are seeing some confusion about, where should I call? 
Should I call 9-1-1? 3-1-1? So have you seen that happening 
across the country somewhere else so we could apply lessons 
learned to avoid the confusion?
    For example, I had a person who didn't know to call 9-1-1. 
In our freeway, a refrigerator was in the middle of a road. Do 
I call that? Is that an emergency like a--something like a fire 
or gunshots? Or just call the city? And so, any idea how we can 
help that out? Because it is kind of confusing.
    Mr. Cohen. That is true. Thank you for the question.
    Well, first, as a general matter, it is a problem across 
many 9-1-1 centers that they field too many nonemergency calls. 
Centers do vary in terms of the guidance they give to the 
general public, but, generally speaking, they say, ``In an 
emergency, call 9-1-1.''
    Some cities, like Washington, DC, here, also colocate 3-1-
1. And, in those instances, it is good, because it is hard 
sometimes for a citizen to decide, apart from the obvious 
things that we know isn't an emergency. Your example of a 
refrigerator on a highway, that seems to me like an emergency. 
But when you colocate and you have a 3-1-1 center as well, 
those calls can then be transferred back and forth by the 
professionals manning the 3-1-1 and 9-1-1.
    But, as a general matter, to answer your question, call 9-
1-1 only in emergencies.
    Mr. Olson. That is it.
    Mr. LeGeyt, you mentioned in your testimony that local 
stations continue to invest in resiliency of their 
infrastructure to make sure they can enable interactive--
provide life-saving information during disasters.
    However, we have learned that some storms obviously can be 
overtaken by the force of nature God creates. And so my 
question to you is, can we address some of those problems with 
a quicker permitting process, some waivers in the future? Have 
you seen some problems with Irma, with Maria, with Harvey, with 
Michael, with the fires that we could address now and not wait 
until a crisis happens?
    Mr. LeGeyt. Thank you, Congressman, for the question. And 
as you allude to, you know, of all the things that local 
broadcasters do, both television and radio, there is none we 
take more seriously than our role of being on the air 24/7 in a 
time of emergency.
    Very candidly, I think the provisions included in the SANDy 
Act--which we have yet to see the full impact, but--are very, 
very significant. You know, broadcasters being granted priority 
access to fuel, to access their facilities during times of 
emergency. A lot of what we have dealt with just logistically, 
and it is understandable, given the importance of having, you 
know, first responders on the scene, is just an inability to 
repair our facilities as quickly as possible.
    There are going to be some circumstances where, you know, 
it is impossible. But where it is possible, that legislation is 
going to significantly improve our ability to get our 
facilities back on the air.
    Mr. Olson. Yes. One of our local TV stations basically 
moved their whole operations from where they have been flooded 
twice now. They said, this is enough being flooded. People 
depend on the information, the weather radar, all the 
information. So thanks for that answer.
    A final Christmas question. It is kind of a present. And 
this is for you, Mr. Zachary. As we talked before, as a young 
boy, I lived in Appleton, Wisconsin, 1964 to 1966, the heyday 
of a coach named Vince Lombardi.
    My question is for the largest public television station in 
Wisconsin. Who is the best quarterback the Packers have ever 
had? Is it Bart Starr, Brett Favre, or Aaron Rodgers? Your 
listeners want to know--viewers want to know.
    Mr. Zachary. I can't answer, because when I get back to the 
office, I will be beset upon by varying factions who support 
the different----
    Mr. Johnson. He is taking the Fifth.
    Mr. Olson. Go, Pack, go.
    I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Bilirakis, you are recognized.
    Mr. Bilirakis. Man, I think that is the toughest question 
we have ever posed to a person on the dais ever in history. I 
mean, that is a tough one. I would say Bart Starr. But, anyway, 
I am an old-fashioned guy.
    Thank you, Madam Chair. And I appreciate your service in 
the House of Representatives. I know you are going to do a 
wonderful job representing the great State of Tennessee.
    And I will never forget--my dad sends his best as well. I 
will never forget you came to Florida for his retirement 
banquet and spoke. You were the guest speaker. And I just 
appreciate everything you have done for my family and for the 
United States of America. And I know there is more to come.
    First, I would like to highlight a recent R Street report 
that ranked Florida as the best State for broadband deployment 
based on a review of each State's State and local regulations. 
This system, in conjunction with the RAY BAUM'S Act, will help 
Florida lead the development of next-generation internet 
services. And I am very excited about the future.
    Mr. Donovan, in terms of current regulatory barriers and 
making 5G a priority, should we have policies that exempt or 
streamline installation of communications facilities that 
simply replace older existing ones?
    Mr. Donovan. Yes, thank you for the question. And I think 
that is common sense, that we should allow that, especially as 
we are upgrading networks right now.
    You know, 4G built upon 3G networks. 5G is going to build 
upon 4G. As you are replacing some of the equipment, you 
shouldn't have to go through a whole, entire review process all 
times over again.
    If the land has already been disturbed, if you are on top 
of a roof that has already been studied and you are swapping 
out an antenna, it doesn't seem to make any sense to have the 
cost, the expense, and the delays that go along with going 
through the permitting process again.
    Mr. Bilirakis. Very good. That is what I like to hear.
    Representing an area always under threat by hurricanes and 
storms, I regularly worry about continuity of emergency 
communications and systems, as you can imagine. And while we 
should try to stick to the transition schedule set out for 
repack, we should not unnecessarily threaten an area's public 
safety communications if it is within our control.
    Mr. LeGeyt, in your testimony, you mentioned that a station 
was able to be reassigned to a later repack phase after it 
became clear it would not meet the deadline due to 
circumstances outside its control.
    Can you further describe the process that the station and 
the FCC went through in order to get that reassignment? And how 
much notice of the move was given to the station before the 
Phase 1 deadline? I think that is very important. So, if you 
could answer that, I would appreciate it.
    Mr. LeGeyt. Thank you for the question. And, obviously, as 
we proceed with this repack process, this, from the broadcast 
industry's perspective and the perspective of our viewers, is 
the critical one.
    Stations' preparations for these moves have been underway 
for over a year at this point. And so, as stations became 
aware--and there were 11 of them in the first phase that were 
unable to meet their deadlines. They were working very, very 
closely with the FCC, as well as with the NAB, to keep everyone 
informed of issues that were arising and the potential for an 
inability to meet the deadline as it got closer.
    Over the few weeks leading up to the final deadline, formal 
petitions were filed with the FCC for waivers of those 
deadlines. And as it relates to Phase 1, all of those were 
granted, and stations were moved to either Phase II or Phase 3.
    I think our real concern as we move forward here is that 
those waivers were granted and they were all circumstances 
where the move to a subsequent phase did not impact another 
station's ability to move in that phase. That is going to 
become more and more difficult as we move forward here. But 
from the industry's perspective, we are looking for an 
assurance--and the relationship with the FCC has been a 
constructive one in this--that no station is going to be forced 
off the air, regardless, for an inability to comply with a 
deadline for reasons outside its control. And that 
communication with the FCC is ongoing.
    Mr. Bilirakis. Wow. That is good to hear. I appreciate it 
very much.
    And thank you for your service, Madam Chair, on this 
committee and in the House.
    I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Ruiz, you are recognized.
    Mr. Ruiz. Thank you.
    Today I want to talk about broadband access issues in 
Tribal lands, on Indian reservations. Today's hearing is 
critical because it is an opportunity to do a progress report 
on the administration's implementation of one of the 
committee's most important bipartisan achievements, the RAY 
BAUM'S Act.
    It is especially important to me because it included my 
legislation, the Tribal Digital Access Act, which, if 
implemented properly, will take real, concrete steps toward 
bridging the digital divide in Tribal communities while helping 
neighboring nontribal communities as well.
    Under the Tribal Digital Access Act, the FCC is required to 
have completed an analysis of broadband coverage on Tribal 
lands by the end of March, less than 4 months from now. Yet, to 
date, my office has yet to have any interaction with the FCC to 
review the methodology of that ongoing study, nor have we 
learned of any Tribes having been consulted.
    This is especially concerning given the recent Government 
Accountability Office report that found the FCC's mapping data 
is overstating broadband access on Tribal lands and that they 
lack a formal consultation process for Tribes to provide their 
input.
    Following that report, Ranking Member Pallone and I wrote 
to the FCC asking how they plan to fix the deficiencies 
identified by the GAO study, as well as for an update on its 
effort to comply with my Tribal Digital Access in RAY BAUM'S. 
That was more than a month ago, and we have yet to receive any 
reply, and that is simply unacceptable.
    And I am saying this, as well, in good faith with our 
ranking member of this committee, who will soon be the chairman 
of this committee, to take note so that we can take this issue 
up during the next Congress.
    It is becoming abundantly clear that this FCC does not 
respect the treaty and trust responsibilities of the Federal 
Government to federally recognized Tribes, nor do they view the 
accurate accounting of broadband service on Tribal lands as a 
priority at all.
    And I am not prepared to allow the FCC's inaction on this 
issue to prevent us from making meaningful progress to bring 
broadband internet to Tribal lands and the surrounding 
communities. And I say all this to make sure that we are on the 
record so that when we do address this issue in the next 
Congress that we have a trail behind us leading up to some 
important questions that need to be asked.
    However, for this panel, I would like to ask, Mr. Donovan, 
your perspective on this important issue. Based on your 
experience working with carriers in both rural and Tribal land, 
to what extent are the barriers to broadband deployment, such 
as distance or unfavorable market conditions, generally the 
same barriers to deployment on Tribal lands?
    Mr. Donovan. Thank you for the question. And you are right, 
they are the same problems, magnified by a lack of 
communication in some cases.
    What we have found with our members that provide service on 
Tribal lands also in partnership with Tribes, as well as Tribal 
members that we have, we share your frustration at the lack of 
reliable data over where coverage exists. Because it makes it 
very challenging to use different grant and subsidiary programs 
to build out that service if we can't identify where it is 
needed.
    Going forward, some of the other things in RAY BAUM'S Act 
that could help with that include provisions on freeing up 
spectrum in rural areas--that would include Tribal areas--to 
make sure that spectrum that is licensed for mobile broadband 
use but is not being used in those areas, that we can try and 
find some incentives so that carriers and Tribes that do want 
to use that spectrum can put it to use to serve people.
    Mr. Ruiz. What are some of the unique challenges that 
Tribes face?
    Mr. Donovan. So some of the unique challenges--and we have 
been pleased at finding some unique solutions--I think include 
making sure to respect the historical elements that are in 
place.
    So a good example of that we have with a member that works 
with the Navajo Nation that was having trouble finding an ideal 
place to locate the cell tower, and, working with the Tribe and 
with the shilpa, were able to figure out a design that masked 
the cell tower as a chimney on a pueblo, so it doesn't disturb 
the appearance of the area but yet provides the connectivity 
that they lacked beforehand.
    Mr. Ruiz. And, I am sure, some very important culturally 
relevant, sacred sites, burial grounds perhaps.
    Mr. Donovan. Absolutely.
    Mr. Ruiz. And, similarly, do you have any ideas for how the 
FCC can address these changes in order to fulfill the second 
requirement under the Tribal Digital Access Act, to complete a 
rulemaking that will address the broadband access disparity in 
these communities? Do you have any recommendations?
    Mr. Donovan. You know, as the FCC moves forward with that 
proceeding, I hope that they do look at all-of-the-above 
solutions. We really need to make sure we have all the tools 
available to make sure that we expand broadband, particularly 
in difficult, rough terrain and hard-to-serve areas.
    Mr. Ruiz. Thank you.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Johnson, you are recognized.
    Mr. Johnson. Thank you, Madam Chairwoman. And let me add my 
congratulations to your election victory. And honored to have 
served under your leadership here on this subcommittee.
    And to my colleague Mr. Doyle, I look forward to working 
with you in the 116th to advance these issues.
    Mr. LeGeyt, you know, I understand how important it is to 
keep the repacking on schedule as much as practically possible. 
As you probably know, there are almost 50 full-power television 
stations that broadcast to my constituents in rural Appalachia 
that are having to move to new channels over the next 18 
months. That doesn't count the host of translators which we 
need in Appalachia to make sure that the over-the-air 
television signals get to homes in our very mountainous, rural 
areas.
    I know that the FCC has granted waivers for 11 stations in 
the first phase that were not able to meet their move deadlines 
because of weather issues or because of the shortage of tower 
crews.
    Are you confident that now as the repack is kicking into 
high gear that the FCC will continue to give stations latitude 
and grant waivers where appropriate if stations, like the ones 
broadcasting in my district, are unable to meet their move 
deadlines for reasons outside of their control?
    Mr. LeGeyt. Thank you, Congressman, for the question.
    We are certainly gratified by the approach the FCC has 
taken to those 11 stations up to this point. And, certainly, 
the dialogue between our trade association as well as 
individual stations that are dealing with moves is an ongoing 
one, and it has been a very constructive one.
    But we clearly see that this repack is only going to get 
more complex as it moves forward. And we do not have assurance 
as to how every one of those individual stations--the 50 that 
you just cited are certainly top of mind--how the FCC is going 
to approach each of these individual waivers.
    I would just simply urge you and other members of this 
committee to remain engaged with the FCC, as well, to ensure 
that they are taking an approach to each of those individual 
stations that ensures that no one is going to be forced off the 
air for reasons outside its control. And you have a commitment 
from the NAB and our industry that we will do everything within 
our power to complete these moves as quickly as possible.
    Mr. Johnson. Yes. And an old country saying where I am 
from: You can't get blood out of a turnip, you know? And there 
is only so much you can do when you don't have tower crews and 
the weather is prohibiting. Something has to give in those 
cases to make sure that those television stations can continue 
to broadcast. So I appreciate your answer.
    Mr. Donovan, as you know, we share an interest in improving 
the quality of our broadband maps, in that there is a lot of 
bipartisan concern that what is being produced now in terms of 
broadband maps is inadequate. That is why I introduced the 
MAPPING NOW Act, which was included in RAY BAUM'S Act, to 
require NTIA to resume the national broadband map to accurately 
identify those areas that lacked broadband coverage.
    In terms of data, in your view, how can we do better? Is 
the FCC's reliance on Form 477 data so flawed that we need an 
alternative? And does the work NTIA is doing hold the promise 
of something better?
    Mr. Donovan. Thank you for the question.
    And so I think the Mobility Fund is itself an example of 
why Form 477 data is not adequate for it. The requirements of 
the Mobility Fund required a unique data collection to start 
with. What should have been a better map, it did standardize 
some factors, but we clearly now know that that did not go far 
enough and that map is also fatally flawed.
    I think we need to continue to work toward standardization 
so that you do have a reliable map that actually looks like the 
experience that you have in your district and your constituents 
have. Because I remember, when we first met and looked at that 
map, that you couldn't believe your eyes, looking at what it 
showed for service.
    Mr. Johnson. Yes. It was crazy.
    Well, you know, RAY BAUM'S Act included a number of actions 
to bridge the digital divide, and that is really what we are 
talking about here. As we look into the next Congress, what 
challenges do your members still face in terms of ability to 
move rapidly, deploy, and service unserved rural communities? 
And how might we be more helpful? Quickly.
    Mr. Donovan. Quickly. I mean, the quick answer, what do 
consumers in rural areas want out of 5G? It is the same thing 
that everyone else does: low-latency, high-speed networks that 
are going to provide all this range of new services.
    Mr. Johnson. Right now, my constituents would settle for 
1G, you know, in many places, because they don't have a G. You 
know, 5 is good, but we have places where we have nothing.
    Thank you.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Long, you are recognized.
    Mr. Long. Thank you, Madam Chairwoman. And thank you for 
your service all these years in Congress and to this committee 
and to this subcommittee. And we are definitely going to miss 
you, but you are not going to be far away, thankfully. So good 
luck over there on the Senate side.
    Mr. LeGeyt, you have noted several times that 11 of the 
stations weren't able to complete their deadline, or meet their 
deadline. Eleven out of how many?
    Mr. LeGeyt. There were 79 stations successfully moved in 
Phase 1. So that Phase 1 universe is 90.
    Mr. Long. OK.
    And several times today, people have referenced the tragic 
loss of life with the tower collapse in my district. It was a 
tower servicing company out of the State of Washington, and we 
are in Missouri, and it is obvious that there is not a lot of 
these tower moving companies around. I believe it was the owner 
of that company that tragically was killed that day. He told 
his men to start down because they knew something was going 
wrong, and he stayed to see what it was. And the rest of them 
were able to, although sustain some injuries, get out alive.
    Can you give us any update on the status of KOZK and if 
they are going to be able to meet their move deadline now?
    Mr. LeGeyt. Absolutely. So KOZK is a public television 
station, so not an NAB member, but high level. I can tell you 
that they operated for several months following that tragedy on 
some interim facilities where they stayed on the air but did so 
under reduced coverage and reduced ability to reach their 
viewers.
    Mr. Long. At a very low level.
    Mr. LeGeyt. A very low level.
    They have been able--they were a Phase 1--KOZK was a Phase 
1 move, and the station technically was able to meet its Phase 
1 deadline. It is currently engaged in a tower share that 
enables it to reach the vast majority of its listeners. But 
that is a temporary and not a long-term solution.
    But as far as the repack process is concerned, they were 
able to successfully change frequencies, which, frankly, is 
amazing given the horrific circumstance.
    Mr. Long. The wireless industry is a job multiplier, and 
studies say it generates more than $400 billion in U.S. 
spending and is expected to contribute $1 trillion to the North 
American economy annually by 2020.
    Those are huge numbers, but there is a hitch. Wireless 
operators need spectrum to deploy service, of course. And one 
of the key bands, the 600 megahertz band, is undergoing the 39-
month transition from broadcast to broadband use. And I know 
the people that had purchased some of the broadcast band or 
broadband to turn into broadband are waiting patiently.
    As the chairman of the full committee mentioned earlier, 
what measures have you taken to ensure the stations clear their 
old spectrum by the statutory deadline of July 13 of 2020?
    Mr. Donovan. Well, thank you for the question.
    And all of those statistics point to the fact that delays 
in this repack schedule do have real-world consequences as 
well. So we want to make sure that we can find ways to safely 
complete this and make sure we can stay as much on track as 
possible.
    I think the fact that all the waivers were granted and that 
progress has continued does speak highly of the work that the 
Incentive Auction Task Force has done and Congress before that 
to make sure to build something into the system, knowing that 
the plan isn't always going to go exactly according to plan, to 
build in some elasticity there to deal with things through the 
waivers and through other processes. And so we will continue to 
see that moving forward.
    Carriers have also taken steps to assist broadcasters, 
including funding additional manufacturing capability so you 
could ramp up beforehand to manufacture the antennas needed, as 
well as working, in particular, with public broadcasters. One 
of our members, T-Mobile, has gone through many efforts to make 
sure that, where they can repack early, they are providing them 
the assistance that they need to be able to do so.
    So we want to continue to work collaboratively with the 
broadcasters to make sure that we can put the spectrum to use 
as soon as possible.
    Mr. Long. OK. And you answered part two of my question in 
that interlude, so I appreciate it very much.
    And, Madam Chair, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mrs. Brooks, you are recognized.
    Mrs. Brooks. Thank you, Madam Chair. And I, too, want to 
congratulate you to moving to the other side of the Capitol, 
but we are definitely going to miss you and look forward to 
your leadership over in the Senate on these same issues. 
Because when I think about what you and our ranking member--
today, but soon-to-be chairman of this committee--accomplished 
with the passage of the RAY BAUM'S Act and signed into law 
earlier this year, it is a critically important piece of 
legislation, and I am really proud of your leadership.
    And I look forward to working with you as well, Mr. Doyle, 
in the future Congress.
    I would like to focus very briefly on FirstNet and NG9-1-1. 
And I know--this question is for you, Mr. Cohen--you have been 
a strong supporter of FirstNet. And I know that APCO certainly 
has led efforts among the public safety associations to ensure 
that this legislation became a reality and that FirstNet became 
a reality.
    And since it has been deployed, how would you gauge how 
FirstNet and AT&T are performing? What have we learned about 
the role FirstNet has played in the recent emergencies, 
specifically Hurricane Michael? And how has RAY BAUM'S Act 
helped further the implementation and goals of FirstNet?
    Mr. Cohen. Thank you for the question.
    We are very pleased thus far with the progress of FirstNet 
and its partner, AT&T. Congress recognized the need to solve an 
interoperability problem and the need to bring first responder 
communications into the 21st century. And FirstNet is 
delivering on the promise of the legislation that created it 
and everything that public safety, united, had asked for.
    So the other impact we are seeing, like with the disasters, 
is that there is a new focus on public safety communications by 
a new service provider, that being FirstNet built by AT&T. So 
you are seeing more attention and focus on prioritization of 
restoration of service, on deployables being dedicated solely 
to solve public safety problems, devices, et cetera.
    We had a couple of examples I am aware of from Hurricane 
Michael where FirstNet aided a public safety agency to restore 
communications from its local emergency operations center to 
the State EOC. That is clearly very helpful.
    It helped to restore wireless service in the area. And it 
also helped restore a piece of 9-1-1 that had failed, a 
connectivity piece, such that consumers who couldn't actually 
call 9-1-1, because the 9-1-1 facility was down, could call a 
10-digit number that the 9-1-1 center was able to broadcast out 
to the members.
    Mrs. Brooks. OK.
    Mr. Cohen. That wireless number was supplied by FirstNet.
    So we are seeing the benefits of it as evidenced out of 
emergencies as well.
    Mrs. Brooks. And is there anything in the RAY BAUM'S Act 
that will help us advance the NG9-1-1 efforts?
    Mr. Cohen. Well, I would say there are two things.
    One, the Stafford Act amendments is what I call the small 
but mighty provision. That was really an important change. And 
the fact that it enables now a range of service providers to 
enter disaster areas and restore service benefits FirstNet, it 
benefits all the public safety agencies, it benefits the 
public.
    The other part that I would highlight is the part on 
dispatchable location, the fact that the FCC has been asked to 
start a proceeding. Dispatch location is the door to kick down, 
it is the gold standard for 9-1-1 location. And that will help 
not only in today's 9-1-1 environment but certainly will 
dovetail well in a full Next Gen environment.
    Mrs. Brooks. OK. Thank you. I have no further questions.
    I want to thank Madam Chairwoman for putting a focus on 
public safety communications as you have during this year.
    With that, I yield back.
    Mrs. Blackburn. The gentlelady yields back.
    And that concludes our questions. There are no further 
Members to ask questions. So we thank you all for being here 
with us.
    Before we conclude, we do have our unanimous consent 
documents: T-Mobile's 600 megahertz deployment in Oregon, from 
Chairman Walden; T-Mobile's coverage enhancement plan for 
Oregon, from Chairman Walden; a list of cities and towns where 
T-Mobile has deployed 600 megahertz, from the chairman; and the 
FCC's draft communications marketplace report, from Mr. Doyle. 
All submitted. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.] 
\1\
---------------------------------------------------------------------------
    \1\ The FCC report has been retained in committee files and also is 
available at  https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=108785.
---------------------------------------------------------------------------
    Mrs. Blackburn. And pursuant to committee rules, I remind 
all committee members that they have 10 days in which to submit 
their questions, and you all have 10 days in which to respond 
to those questions.
    There being no further business, the subcommittee is 
adjourned.
    [Whereupon, at 3:59 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre></body></html>
